<html>
<title> - DISCUSSION DRAFT H.R. _, ‘‘ENHANCING STATE MANAGEMENTOF FEDERAL LANDS AND WATERS ACT"</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
 DISCUSSION DRAFT H.R. ____, ``ENHANCING STATE MANAGEMENT OF FEDERAL 
                        LANDS AND WATERS ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, June 14, 2018

                               __________

                           Serial No. 115-49

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       



        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
          
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-431 PDF              WASHINGTON : 2018         
 
 
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Scott R. Tipton, CO                  Colleen Hanabusa, HI
Doug LaMalfa, CA                     Nanette Diaz Barragan, CA
Jeff Denham, CA                      Darren Soto, FL
Paul Cook, CA                        A. Donald McEachin, VA
Bruce Westerman, AR                  Anthony G. Brown, MD
Garret Graves, LA                    Wm. Lacy Clay, MO
Jody B. Hice, GA                     Jimmy Gomez, CA
Aumua Amata Coleman Radewagen, AS    Nydia M. Velazquez, NY
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                      PAUL A. GOSAR, AZ, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Anthony G. Brown, MD
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
Stevan Pearce, NM                    Jared Huffman, CA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Scott R. Tipton, CO                  Darren Soto, FL
Paul Cook, CA                        Nanette Diaz Barragan, CA
  Vice Chairman                      Nydia M. Velazquez, NY
Garret Graves, LA                    Vacancy
Jody B. Hice, GA                     Raul M. Grijalva, AZ, ex officio
Jack Bergman, MI
Liz Cheney, WY
John R. Curtis, UT
Rob Bishop, UT, ex officio
                                 ------      
                                 
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, June 14, 2018..........................     1

Statement of Members:

    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    Lowenthal, Hon. Alan S., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     6

Statement of Witnesses:

    Anderson, Matt, Director, Coalition for Self-Government in 
      the West, Sutherland Institute, Salt Lake City, Utah.......    17
        Prepared statement of....................................    19
    Cahoon, Ben, Mayor, Board of Commissioners, Nags Head, North 
      Carolina...................................................    21
        Prepared statement of....................................    22
    Ebell, Myron, Director, Center for Energy and Environment, 
      Competitive Enterprise Institute, Washington, DC...........    27
        Prepared statement of....................................    28
    Loris, Nick, Herbert and Joyce Morgan Fellow in Energy and 
      Environmental Policy, Center for Free Markets and 
      Regulatory Reform, The Heritage Foundation, Washington, DC.     7
        Prepared statement of....................................     9

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    56
                                     



LEGISLATIVE HEARING ON DISCUSSION DRAFT H.R. ____, TO AMEND THE MINERAL 
LEASING ACT AND THE OUTER CONTINENTAL SHELF LANDS ACT TO ENHANCE STATE 
    MANAGEMENT OF FEDERAL LANDS AND WATERS, AND FOR OTHER PURPOSES, 
     ``ENHANCING STATE MANAGEMENT OF FEDERAL LANDS AND WATERS ACT''

                              ----------                              


                        Thursday, June 14, 2018

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
room 1324, Longworth House Office Building, Hon. Paul A. Gosar 
[Chairman of the Subcommittee) presiding.
    Present: Representatives Gosar, Lamborn, Wittman, Thompson, 
Tipton, Graves, Hice, Cheney, Bishop (ex officio), Lowenthal, 
Tsongas, Beyer, Soto, Barragan, Velazquez, and Grijalva (ex 
officio).

    Mr. Gosar. The Subcommittee on Energy and Mineral Resources 
will come to order.
    The Subcommittee is meeting today to hear testimony on a 
discussion draft titled ``Enhancing State Management of Federal 
Lands and Waters Act.''
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us to hear from our 
witnesses sooner and helps Members keep to their schedules.
    Therefore, I ask unanimous consent that all other Members' 
opening statements made be part of the hearing record if they 
are submitted to the Subcommittee Clerk by 5 p.m. today.
    Without objection, so ordered.
    I now recognize myself for a 5-minute opening statement.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Gosar. Today, the Subcommittee will discuss a written 
discussion draft that continues a conversation about the 
relationship between the Federal Government and the states most 
immediately affected by the development of federally-owned 
minerals.
    This conversation began last fall, after the Department of 
the Interior announced a robust draft proposed schedule of 
offshore lease sales, which included 47 lease sales in nearly 
all regions of the American Outer Continental Shelf.
    Many coastal governors, municipalities, and congressional 
delegations vocally expressed opposition to the plan, and 
attempted to pass certain measures that discourage or prevent 
mineral development on the federally-owned Outer Continental 
Shelf.
    While states are highly involved in the offshore lease 
planning process, they do not have a veto power over lease 
sales. Congress has seen various bills and amendments 
attempting to impose a moratorium on OCS leasing, essentially 
imposing the localized will on a nationally-owned, widely 
enjoyed benefit. What seems to be lost in these initiatives, 
however, is an acknowledgment that such attempts to strand 
Federal assets comes at the expense of the American taxpayer.
    The ideas presented today increase the state's role in 
Federal mineral management, while indemnifying the taxpayer if 
the state chooses to leave the Federal mineral undeveloped.
    Both the onshore and offshore concepts presented attempt to 
increase the role of states in Federal mineral management by 
creating additional opportunities for states to facilitate or 
inhibit mineral development, while ensuring the American 
taxpayer realizes the value of the nationally-owned minerals.
    Title I of this bill will allow states to assume exclusive 
jurisdiction over oil and gas development on specific parcels 
of federally-owned land. With the approval of the Secretary of 
the Interior, states may choose to increase or decrease 
production, or cease production on these parcels altogether.
    Each state with existing onshore energy production has a 
robust regulatory framework for managing energy development. 
Allowing states to apply their management practices to Federal 
lands will eliminate duplicative regulatory requirements, 
reduce uncertainty for operators, and make these lands 
competitive with state and private lands once again.
    If a state increases production on Federal lands, the state 
will receive 60 percent of the mineral revenues compared to 50 
percent currently provided under the Mineral Leasing Act. 
However, if a state reduces production, that state will receive 
a reduced share of 20 percent and must pay a lost production 
fee to the Federal Treasury. If federally-owned lands within a 
state contain economically recoverable oil and gas resources, 
they have the potential to generate revenue for the Federal 
Government. These lands are owned by the public, meaning that 
keeping these resources off the market represents a cost to 
taxpayers nationwide. If a state chooses to forego development, 
the state will be required to offset the loss in revenue to the 
Federal Treasury.
    Under Title II, coastal states will be empowered to make 
intelligent decisions about allowing or prohibiting development 
in Federal waters. The offshore proposal allows states to 
consider development on a detailed, block-by-block basis. To 
make informed decisions about management, DOI is directed to 
consolidate and supplement geologic and geophysical data on the 
OCS, and to use this information to plan lease sales and 
determine the value of the minerals beneath our oceans.
    Coastal states are then offered the right to determine 
whether lease blocks are included in a final sale. The more 
blocks a state allows to proceed to a final sale, the higher 
the revenue sharing percentage that state receives from 
revenues generated from the development off its coast. Should a 
state choose to withhold the block from a sale, the state must 
indemnify the U.S. Treasury for the value lost to the taxpayer.
    We recognize that the current draft of the bill contains 
several flaws. For instance, it does not yet include the 
equitable redrawing of states' administrative boundary lines, 
nor are the calculations of reasonable indemnifications to the 
Federal Government and revenues to the state finalized. We will 
continue to engage all affected stakeholders on this complex, 
conceptual proposal, and we invite commentary and suggestions 
to ensure the conversation is inclusive and well-informed.
    Once again, these concepts seek to start a conversation 
about the relationship between states and Federal offshore 
development. In the end, these proposals empower states to 
allow their decisions to result in financial benefits or costs 
to their residents--furthering the notion of federalism.

    [The prepared statement of Mr. Gosar follows:]
Prepared Statement of the Hon. Paul A. Gosar, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    Today, the Subcommittee will discuss a discussion draft that 
continues a conversation about the relationship between the Federal 
Government and the states most immediately affected by the development 
of federally-owned minerals.
    This conversation began last fall, after the Department of the 
Interior (DOI) announced a robust draft proposed schedule of offshore 
lease sales, which included 47 lease sales in nearly all regions of the 
American Outer Continental Shelf. Many coastal governors, 
municipalities, and congressional delegations vocally expressed 
opposition to the plan, and attempted to pass certain measures that 
discourage or prevent mineral development on the federally-owned Outer 
Continental Shelf.
    While states are highly involved in the offshore lease planning 
process, they do not have a ``veto'' power over lease sales. Congress 
has seen various bills and amendments attempting to impose a moratorium 
on OCS leasing, essentially imposing the localized will on a 
nationally-owned, widely enjoyed benefit. What seems to be lost in 
these initiatives, however, is an acknowledgement that such attempts to 
strand Federal assets come at the expense of the American taxpayer.
    The ideas presented today increase the state's role in Federal 
mineral management, while indemnifying the taxpayer if the state 
chooses to leave the Federal mineral undeveloped.
    Both the onshore and offshore concepts presented attempt to 
increase the role of states in Federal mineral management by creating 
additional opportunities for states to facilitate or inhibit mineral 
development, while ensuring the American taxpayer realizes the value of 
the nationally-owned minerals.
    Title I of this bill would allow states to assume exclusive 
jurisdiction over oil and gas development on specific parcels of 
federally-owned land. With the approval of the Secretary of the 
Interior, states may choose to increase or decrease production--or 
cease production on these parcels altogether.
    Each state with existing onshore energy production has a robust 
regulatory framework for managing energy development. Allowing states 
to apply their management practices to Federal lands will eliminate 
duplicative regulatory requirements, reduce uncertainty for operators, 
and make those lands competitive with state and private lands once 
again.
    If a state increases production on Federal lands, the state will 
receive 60 percent of the mineral revenues, compared to 50 percent 
currently provided under the Mineral Leasing Act. However, if a state 
reduces production, that state will receive a reduced share of 20 
percent and must pay a ``lost production fee'' to the Federal Treasury. 
If federally-owned lands within a state contain economically 
recoverable oil and gas resources, they have the potential to generate 
revenue for the Federal Government. These lands are owned by the 
public, meaning that keeping these resources off the market represents 
a cost to taxpayers nationwide. If a state chooses to forego 
development, the state will be required to offset the loss in revenue 
to the Federal Treasury.
    Under Title II, coastal states will be empowered to make 
intelligent decisions about allowing or prohibiting development in 
Federal waters. The offshore proposal allows states to consider 
development on a detailed, block-by-block basis. To make informed 
decisions about management, DOI is directed to consolidate and 
supplement geologic and geophysical data on the OCS, and use this 
information to plan lease sales and determine the value of the minerals 
beneath our oceans.
    Coastal states are then offered the right to determine whether 
lease blocks are included in a final sale. The more blocks a state 
allows to proceed to a final sale, the higher the revenue sharing 
percentage that state receives from revenues generated from development 
off its coasts. Should a state choose to withhold the block from a 
sale, the state must indemnify the U.S. Treasury for the value lost to 
the taxpayer.
    We recognize that the current draft of the bill contains several 
flaws. For instance, it does not yet include the equitable redrawing of 
state administrative boundary lines; nor are the calculations of 
reasonable indemnifications to the Federal Government and revenues to 
the states finalized. We will continue to engage all affected 
stakeholders on this complex, conceptual proposal, and we invite 
commentary and suggestions to ensure the conversation is inclusive and 
well-informed.
    Once again, these concepts seek to start a conversation about the 
relationship between states and Federal offshore development. In the 
end, these proposals empower states to allow their decisions to result 
in financial benefits or costs to the their residents--furthering the 
notion of federalism.

                                 ______
                                 

    Mr. Gosar. I now recognize the gentleman from California, 
Mr. Lowenthal, the Ranking Member for his 5 minutes.

 STATEMENT OF THE HON. ALAN S. LOWENTHAL, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lowenthal. Thank you, Mr. Chairman.
    And thank you to the witnesses for being here, and I hope 
our fourth witness comes soon.
    It is Groundhog Day again in the Committee as we consider 
yet another bill that prioritizes the oil and gas industry over 
everyday Americans.
    This discussion draft makes a clear statement: our shared 
public lands and waters are only worth the oil and gas that we 
can wring out of them. Nothing else is worth anything, not the 
ability to hunt, to fish, to bike, to canoe, or simply to enjoy 
our treasured natural places. Under this legislation, those are 
all worthless.
    Our spectacular landscapes, our wild areas, our magnificent 
beaches, and our oceans--under this legislation, they are all 
worthless. Only oil and gas is worth anything. And the bill 
would reward states that get onboard and want to drill more, 
while harshly punishing states that prioritize conservation, 
protection, wildlife habitat, recreational opportunities, or 
their tourism economy, and it also punishes states wanting a 
clean environment.
    Title I of this bill would hand public land management over 
to oil and gas companies in each state. We have seen language 
like this before in the Subcommittee, but we have never seen 
such a blatant expression of disdain for our existing laws and 
the public's right to have a say about what is going on.
    The bill entirely waives the National Environmental Policy 
Act, the Administrative Procedure Act, the Endangered Species 
Act, and the National Historic Preservation Act for oil and gas 
activities.
    In addition, it says that when our states take over, there 
would be no ability to protect other uses of the land or to 
limit where oil and gas drilling occurs. And, of course, states 
are given incentives to take over and drill more--an additional 
11 percent of the oil and gas revenues if they do. In effect, 
this title is a bribe for states to take public lands out of 
the public's hands.
    It might be hard to believe, but Title II of the bill is 
arguably even more extreme. Under the guise of local 
management, the discussion draft would allow the Federal 
Government to extort enormous sums of money from coastal states 
that want to protect their oceans and beaches from the threat 
of offshore drilling. While the concept is indeed novel, it is 
also reprehensible.
    If a state wants to prevent a lease sale in its entirety, 
they would have to pay potentially billions of dollars, or 
more, to the Federal Government.
    Due in part to the ambiguous wording of the bill, it is 
hard to determine the exact ransom amount, but estimates 
underscore the proposal's absurdity. My home state of 
California could easily have to pay--and I am going to state 
this clearly--over a trillion dollars for a 10-year reprieve.
    We know the Administration likes to play favorites. Well, 
this bill would give them a chance to bankrupt blue states by 
threatening to hold lease sales off their coasts. If a state 
pays up, their beaches are safe. But if not--hey, beautiful 
coastline you have there, you have a beautiful coastline? 
Wouldn't it be a shame if something happened to it?
    If Title I is the bribe, Title II is the shakedown. Coastal 
tourism and recreation economies generate billions of dollars 
and employ millions of people. states recognize both the 
financial and social value of coastal resources and know oil 
and gas development are not worth the risk.
    I hope this discussion draft is more about trying to make a 
point than making a serious effort to legislate.
    I understand some in the Majority see a double standard, 
where coastal states get their way on Federal waters while 
other states don't have the ability to manage Federal land on 
their own, but that argument is flawed. Coastal states don't 
get to unilaterally decide what happens in Federal waters.
    We make our case to the Secretary. It is a strong case that 
our coastal economies are too valuable to risk them for a few 
barrels of oil, and we are backed by a majority of our 
constituents, but the Secretary is the one who ultimately 
decides what to lease. And states with public land also get to 
weigh in on how the land-use plans are developed.
    The ideas behind this bill are flawed, and its enactment 
would be disastrous for everyone who uses or enjoys our public 
lands, our beaches, and our oceans.
    I thank the witnesses for being here, and I yield back.

    [The prepared statement of Mr. Lowenthal follows:]
   Prepared Statement of the Hon. Alan S. Lowenthal, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you, Mr. Chairman, and thank you to the witnesses for being 
here.

    It's Groundhog Day in the Subcommittee as we consider yet another 
bill that prioritizes the oil and gas industry over everyday Americans.
    This discussion draft makes a clear statement: our shared public 
lands and waters are only worth the oil and gas we can wring out of 
them. Nothing else is worth anything. Not the ability to hunt, fish, 
bike, canoe, or simply enjoy our treasured natural places. Under this 
legislation, those are all worthless.
    Our spectacular landscapes, our wild areas, our magnificent 
beaches, and our oceans--under this legislation, they are all 
worthless. Only oil and gas is worth anything. And the bill would 
reward states that get on board and want to drill more, while harshly 
punishing states that prioritize conservation, protection, wildlife 
habitat, recreation opportunities, or their tourism economy and a clean 
environment.
    Title I of this bill would hand public land management over to oil 
and gas companies in each state. We have seen language like this before 
in this Subcommittee, but we have never seen such a blatant expression 
of disdain for our existing laws and the public's right to have a say.
    The bill entirely waives the National Environmental Policy Act, the 
Administrative Procedure Act, the Endangered Species Act, and the 
National Historic Preservation Act for oil and gas activities.
    In addition, it says that where states take over, there would be no 
ability to protect other uses of the land, or to limit where oil and 
gas drilling occurs. And, of course, states are given incentives to 
take over and drill more: an additional 11 percent of the oil and gas 
revenues if they do. In effect, this title is a bribe for states to 
take public lands out of the public's hands.
    It might be hard to believe, but Title II of the bill is arguably 
more extreme. Under the guise of local management, the discussion draft 
would allow the Federal Government to extort enormous sums of money 
from coastal states that want to protect their oceans and beaches from 
the threat of offshore drilling. While the concept is indeed novel, 
it's also reprehensible.
    If a state wants to prevent a lease sale in its entirety, they 
would have to pay potentially billions of dollars, or more, to the 
Federal Government.
    Due in part to the ambiguous wording of the bill, it's hard to 
determine the exact ransom amount, but estimates underscore the 
proposal's absurdity. My home state of California could easily have to 
pay over a trillion dollars for a 10-year reprieve.
    We know this Administration likes to play favorites. Well, this 
bill would give them a chance to bankrupt blue states by threatening to 
hold lease sales off their coasts. If a state pays up, their beaches 
are safe. But if not . . . hey, beautiful coastline you've got there, 
would be a shame if something happened to it.
    If Title I is the bribe, Title II is the shakedown. Coastal tourism 
and recreation economies generate billions of dollars and employ 
millions of people. States recognize both the financial and social 
value of coastal resources and know oil and gas development are not 
worth the risk.
    I hope that this discussion draft is more about trying to make a 
point than a serious effort at legislating.
    I understand some in the Majority see a double standard, where 
coastal states get their way on Federal waters while other states don't 
have the ability to manage Federal land on their own. But that argument 
is flawed. Coastal states don't get to unilaterally decide what happens 
in Federal waters.
    We make our case to the Secretary. It is a strong case that our 
coastal economies are too valuable to risk them for a few barrels of 
oil. And we are backed by large majorities of our constituents. But the 
Secretary ultimately decides what to lease. And states with public land 
also get to weigh in on how land use plans are developed.
    The ideas behind this bill are flawed, and its enactment would be 
disastrous for everyone who uses or enjoys our public lands, our 
beaches, and our oceans.

    I thank the witnesses again for being here, and I yield back.

                                 ______
                                 

    Mr. Gosar. I thank the gentleman.
    I now will recognize our panel.
    We have Nick Loris, Herbert and Joyce Morgan Fellow in 
Energy and Environmental Policy, Center for Free Markets and 
Regulatory Reform, The Heritage Foundation, right here in 
Washington, DC; we have Matt Anderson, Director, Coalition for 
Self-Government in the West, Sutherland Institute, Salt Lake 
City, Utah; Mayor Ben Cahoon, Board of Commissions, Nags Head, 
North Carolina; and then Myron Ebell, Director, Center for 
Energy and Environment, Competitive Enterprise Institute, right 
here in Washington, DC.
    Let me remind our witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire statement will appear in the record.
    The microphones are not automatic. For the first 4 minutes, 
you will see a green light. When it turns yellow, you have a 
minute to summarize. And then when it hits red, please 
summarize so that we can get to questions.
    I now recognize Mr. Loris for his 5 minutes.

  STATEMENT OF NICK LORIS, HERBERT AND JOYCE MORGAN FELLOW IN 
 ENERGY AND ENVIRONMENTAL POLICY, CENTER FOR FREE MARKETS AND 
   REGULATORY REFORM, THE HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Loris. Chairman Bishop, Chairman Gosar, Ranking Member 
Lowenthal, and distinguished members of the Subcommittee, thank 
you for this opportunity to testify on the Enhancing State 
Management of Natural Resources on Federal Lands and Waters 
Act.
    My name is Nick Loris, and I am the Herbert and Joyce 
Morgan Fellow at The Heritage Foundation. The views I express 
in this testimony are my own and should not be construed as 
representing any official position of The Heritage Foundation.
    Both proponents and opponents of energy production on 
Federal lands and waters have expressed frustration over the 
current leasing and permitting process. Proponents of increased 
energy access have long derided decisions by previous 
administrations to lock up resources and make it painstakingly 
difficult to secure and use a lease.
    More recently, opponents of offshore drilling in coastal 
states have voiced concerns that offshore oil and gas 
production have too much environmental risk and would adversely 
affect other sectors of their state's economy. This mutual 
dissatisfaction with the status quo presents an opportunity for 
change.
    A fundamental problem with the current approach is that the 
Federal ownership and control of minerals have taken decision 
rights away from the states. Federal ownership results in 
static management to very dynamic energy markets. In this 
regard, I would like to make several observations.
    First, the benefits of active state engagement with regard 
to energy production.
    Offshore--even under the current broken system, Louisiana 
is a wonderful success story of a state that has robust oil and 
gas production but also strong commercial fishing, seafood, and 
tourism industries. With more than 80 percent of water-borne 
rigs off the state's coast and representing 30 percent of the 
commercial fishing in the continental United States, Louisiana 
has long demonstrated these industries work harmoniously.
    Onshore--states have had remarkable success overseeing 
national resource development, both economically and 
environmentally. States process applications for permits to 
drill in days or weeks whereas the Federal Government takes 
several months. Where states have authority over the regulatory 
process, oil and gas production has soared.
    This energy revolution has been a tremendous boon for these 
states' economies and for the economy at large. Lower energy 
bills have reduced costs for businesses across the country and 
put money back into the bank accounts of hard-working American 
families.
    The draft legislation would make important reforms to 
transfer responsibilities to the states for energy extraction 
on Federal lands. This will result in more accountable and 
effective management.
    Reducing bureaucratic delay will result in an industry that 
is more responsive to price changes, creating more investment 
in jobs in the process. The second observation is the benefits 
the bill would generate by aligning economic and environmental 
incentives. When policies are site-specific, situation-
specific, and employ local knowledge, they encourage better 
care of the environment and natural resources by putting them 
in the hands of people who have immediate stake in wise 
management.
    Another significant feature of the draft bill is that it 
would properly align financial incentives for the states. 
Offering states a greater percentage of the revenue collected 
would encourage states to seriously consider the economic 
benefits of onshore and offshore energy production.
    In fact, as recently as 2013, both Democratic Senators from 
Virginia offered legislation to open parts of the Atlantic to 
offshore development. A critical component of their legislation 
was to ensure that Virginia received royalty revenues similar 
to states operating in the Gulf Coast. Under this draft bill, 
should states pursue offshore development, they would capture 
an even greater share of the revenue.
    My third observation is possible congressional action 
beyond the scope of this draft. Congress could go even further 
by applying the same reforms to all energy investments on 
Federal lands and waters.
    States should have the same incentives and choices the 
draft legislation provides to oil and gas for all other energy 
projects, whether it is a solar farm in Nevada or offshore wind 
in the Atlantic.
    Congress should also consider opening lease options to all 
interested parties. Under the current policy, only energy 
companies can bid on tracts of land and the Federal Government 
requires leaseholders to demonstrate intent to develop these 
resources.
    Opening up the auction would invite more competition and 
help truly assess the value of the land and the resources 
beneath it. A more inclusive bidding process could also create 
more economic and environmental cooperation. An environmental 
organization could pair up with a grazer to bid on a parcel of 
land, or an energy company could coordinate with a 
conservationist group to use the land in which both parties 
benefit.
    In conclusion, policy reform should open access to our 
abundance of resources, establish the framework for competitive 
markets to respond to price signals, empower the states, and 
protect the American taxpayers.
    I commend the Committee for introducing this draft 
legislation that would improve the current process by engaging 
the appropriate stakeholders and better aligning incentives for 
economic development and environmental protection.
    Thank you, and I look forward to your questions.

    [The prepared statement of Mr. Loris follows:]
 Prepared Statement of Nicolas Loris, Herbert & Joyce Morgan Research 
                    Fellow, The Heritage Foundation
    My name is Nicolas Loris and I am the Research Manager in Energy 
and Environment and Herbert & Joyce Morgan Research Fellow at The 
Heritage Foundation. The views I express in this testimony are my own, 
and should not be construed as representing any official position of 
The Heritage Foundation.
    I want to thank the members of the Committee on Natural Resources' 
Subcommittee on Energy and Mineral Resources for this opportunity to 
discuss enhancing state management of natural resources on Federal 
lands and waters.
    Both proponents and opponents of increased access to natural 
resource extraction on Federal lands and waters have expressed 
frustration over the leasing and permitting process. Proponents have 
long derided the decisions by previous administrations to lock up 
resources or make it painstakingly difficult to secure and use a lease. 
More recently, several coastal states responded to the latest 
Department of the Interior (DOI) offshore drilling proposal by voicing 
concerns that oil and gas production would have possible environmental 
risks and negative impacts on other sectors of their respective state's 
economy.
    Dissatisfaction from both parties presents an opportunity to 
improve the current system. Rather than have a system subject to the 
whims of whoever is in charge, successful, comprehensive reform should 
accomplish four objectives: (1) create a system that enables the energy 
industry to respond more quickly to rapidly changing market conditions; 
(2) involve states more directly in decision making; (3) protect the 
American taxpayer; and (4) align incentives for energy production and 
environmental protection.
     the enhancing state management of federal lands and waters act
    The Enhancing State Management of Federal Lands and Waters Act is a 
discussion draft that would amend the Mineral Leasing Act (MLA) and the 
Outer Continental Shelf Lands Act (OCSLA) to empower states to have 
more control over the leasing, permitting, and regulations of oil and 
gas production. Title I addresses onshore oil and gas development. If 
enacted, a state would apply to establish enhanced management regions 
that would authorize the state to develop energy resources on Federal 
land that is not Indian land, part of the National Park System, the 
National Wildlife Refuge System, or a congressionally designated area.
    The legislation would allow states to develop programs that satisfy 
all applicable Federal laws required to produce energy on Federal 
lands. Therefore, states would have complete control of their energy 
programs. In the event that an enhanced management region generates 
more oil and gas production than the average of the previous 5 fiscal 
years, states receive a greater percentage of the revenue accrued from 
bonus bids, rentals, and royalties. If non-market factors yield less 
production in an enhanced management region, the Secretary of Interior 
can revoke authority or assess a lost production fee.
    Title II of the discussion draft addresses offshore oil and gas 
development. The legislation would direct the Interior Secretary to 
conduct geological and geophysical mapping of the National Outer 
Continental Shelf (OCS) to establish a better estimate of oil and gas 
reserves off the U.S. coastline. In addition, the draft would authorize 
a state to approve or disapprove of each lease block offered in the 
DOI's lease sale if the area is within the state's administrative 
boundaries. If a state approves of all of the blocks in a lease sale, 
the state would receive 50 percent of the revenues from bonus bids, 
rentals, and royalties. If a state disapproves of lease blocks, the 
state would pay a fee to the Federal Government to compensate the 
taxpayer for lost revenues. The number of lease blocks a state 
disapproves of would determine the payment a state would make to the 
U.S. Treasury.
           the importance of energy production and federalism
    The Enhancing State Management of Federal Lands and Waters Act and 
the outcome of a January 2018 meeting between Secretary of the Interior 
Ryan Zinke and Florida Governor Rick Scott (R) prompts an important 
question about federalism and states' rights in the context of energy 
production. Florida currently has a legislative ban on oil and gas 
production off the Florida coast until 2022.\1\ Shortly after the 
Department of the Interior released its Draft Proposed Program (DPP) 
for the leasing of Federal lands under the National Outer Continental 
Shelf Oil and Gas Leasing Program for 2019-2024, Secretary Zinke met 
with Governor Scott.
---------------------------------------------------------------------------
    \1\ Laura B. Comay, ``Five-Year Program for Federal Offshore Oil 
and Gas Leasing: Status and Issues in Brief,'' Congressional Research 
Service Report for Congress, No. 44692, January 8, 2018, http://
plus.cq.com/pdf/crsreports-5247017.pdf?1 (accessed June 11, 2018).
---------------------------------------------------------------------------
    Afterward Zinke tweeted that Florida would have no new oil and gas 
platforms off its coast, citing Governor Scott's position that the 
Sunshine State is heavily dependent on tourism for its economy.\2\ The 
announcement prompted policy makers in other coastal states to request 
their own exemptions.\3\ Secretary Zinke expressed intent to meet with 
all the relevant governors and the proposal entered the 60-day public 
comment period.\4\ Conversely, lawmakers from Louisiana, which has a 
long history in offshore energy production, hailed the proposal as a 
boon for the state's economy.\5\
---------------------------------------------------------------------------
    \2\ Jennifer A. Dlouhy, ``About-Face Tweet on Florida Drilling May 
Backfire on U.S. Agency,'' Bloomberg, January 10, 2018, https://
www.bloomberg.com/news/articles/2018-01-10/about-face-tweet-on-florida-
drilling-may-backfire-on-u-s-agency (accessed June 11, 2018).
    \3\ David Weigel, Darryl Fears, and John Wagner, ``Decision to 
Exempt Florida from Offshore Drilling Prompts Bipartisan Uproar,'' The 
Washington Post, January 10, 2018, https://www.washingtonpost.com/
politics/decision-to-exempt-florida-from-offshore-drilling-prompts-
bipartisan-uproar/2018/01/10/1f5befa4-f625-11e7-beb6-
c8d48830c54d_story.html?utm_term=.810b0cc528fd (accessed June 11, 
2018).
    \4\ Ibid.
    \5\ Matthew Daly, ``Trump Moves to Vastly Expand Offshore Drilling 
Off U.S. Coasts; Louisiana Delegation Welcomes Move,'' The Advocate, 
January 4, 2018, http://www.theadvocate.com/baton_rouge/news/politics/
article_8ad8a726-f199-11e7-9130-4395863271c7.html (accessed June 11, 
2018).
---------------------------------------------------------------------------
    Although the Secretary's comment was not a formal action, it re-
started a necessary discussion over federalism and the importance of 
state input. Pro-energy states, both onshore and offshore, have long 
disparaged Federal decisions to prohibit and delay energy development 
and job creation in their respective states. Previous Congresses and 
administrations have placed outright moratoriums on certain areas off 
America's coasts. Furthermore, costly bureaucratic delays on Federal 
lands for issuing leases and processing applications for permits to 
drill stalls production and economic growth. Without a doubt, 
frustration exists on both sides.
    The fundamental issue is that Federal ownership and control of 
minerals offshore (and onshore) has taken decision rights away from 
states. Both economically and environmentally, states have proven to 
manage energy development prudently. For example, where states have 
authority over applications for permits to drill and conduct 
environmental reviews, oil and gas production has soared.\6\ Energy 
companies have capitalized on the wealth of resources on private- and 
state-owned lands.\7\ The energy industry and consumers alike benefit 
from most of the shale oil and shale gas--from which much of the 
domestic production is coming--not being under Federal control.\8\
---------------------------------------------------------------------------
    \6\ Marc Humphries, ``U.S. Crude Oil and Natural Gas Production in 
Federal and Nonfederal Areas,'' Congressional Research Service Report 
for Congress, No. 42432, June 22, 2016, https://fas.org/sgp/crs/misc/
R42432.pdf (June 12, 2018).
    \7\ Institute for Energy Research, ``Energy Production on Federal 
Lands Lags Behind Private and State Lands,'' July 21, 2015, http://
instituteforenergyresearch.org/analysis/energy-production-on-federal-
lands-lags-behind-private-and-state-lands/ (accessed June 12, 2018).
    \8\ U.S. Department of Energy, Energy Information Administration, 
``Maps: Exploration, Resources, Reserves, and Production,'' https://
www.eia.gov/maps/maps.htm (accessed June 12, 2018).
---------------------------------------------------------------------------
    However, Federal regulations and Federal land ownership have 
rendered vast quantities of recoverable oil and natural gas onshore and 
offshore either inaccessible or costlier to extract.\9\ Permitting 
energy extraction on federally owned land will result in even more oil 
and gas extraction and create jobs in areas that may not otherwise see 
such economic growth. On average, the Federal processing of an 
application for permit to drill (APD) in the last year of the Obama 
administration was 257 days, while state processing is typically 30 
days or less.\10\
---------------------------------------------------------------------------
    \9\ Mark Green, ``Expanding Offshore Access Is Key to U.S. Energy 
Security,'' Energy Today, May 1, 2017, http://energytomorrow.org/blog/
2017/05/01/expanding-offshore-access-key-to-us-ener (accessed June 12, 
2018).
    \10\ News Release, ``Zinke Signs Secretarial Order To Streamline 
Process For Federal Onshore Oil And Gas Leasing Permits,'' U.S. 
Department of the Interior, July 6, 2017, https://www.doi.gov/
pressreleases/zinke-signs-secretarial-order-streamline-process-federal-
onshore-oil-and-gas-leasing (accessed June 12, 2018).
---------------------------------------------------------------------------
    State control, local governance, and private-sector participation 
would result in more accountable, effective management. While the 
Federal Government can simply shift the costs of mismanagement to 
Federal taxpayers, states have powerful incentives for better 
management of resources on Federal lands. State governments can be more 
accountable to the people who will directly benefit from wise 
management decisions, especially as it pertains to natural resource 
management. According to a 2015 Property and Environment Research 
Council report, ``On average, states generate more revenue per dollar 
spent than the Federal Government on a variety of land management 
activities, including timber, grazing, minerals, and recreation.'' \11\
---------------------------------------------------------------------------
    \11\ Holly Fretwell and Shawn Regan, ``Divided Lands: State vs. 
Federal Management in the West,'' Property and Environment Research 
Center, PERC Public Lands Report, March 2015, Figure 1, http://
www.perc.org/sites/default/files/pdfs/150303_PERC_DividedLands.pdf 
(accessed June 12, 2018).
---------------------------------------------------------------------------
    Moreover, incentives to invest in and steward the environment are 
stronger when people have direct ownership and responsibility.\12\ The 
Bureau of Land Management (BLM) and Forest Service (FS) lands lost 
$4.38 per acre from 2009-2013, while trust lands in four western states 
earned $34.60 per acre.\13\ In terms simply of recreation, states again 
do a better job of making a return on their investment. Idaho and 
Montana averaged $6.86 per dollar spent on recreation on state trust 
lands; in contrast, the BLM earned $0.20 and the FS $0.28 per dollar 
spent, resulting in a net loss.\14\ While states and local communities 
may not always make perfect decisions, the best environmental policies 
are site- and situation-specific.
---------------------------------------------------------------------------
    \12\ For more information, see Nicolas D. Loris, ``Chapter 5: 
Economic Freedom, Energy, and Development,'' 2015 Index of Economic 
Freedom (Washington, DC: The Heritage Foundation and Dow Jones & 
Company, Inc., 2015), https://www.heritage.org/index/pdf/2015/book/
chapter5.pdf.
    \13\ Fretwell and Shawn Regan, ``Divided Lands: State vs. Federal 
Management in the West.''
    \14\ Ibid.

    Moreover, transferring decision rights to states and the private 
sector could lead to an industry that is more responsive to price 
changes. According to a working paper from Utah State University 
---------------------------------------------------------------------------
economist Eric C. Edwards,

        Even though 99 percent of Federal drilling permits are 
        eventually approved, bureaucratic delay imposes costs through 
        delay and dampening. Drilling response is slower, and thus 
        wells on Federal lands do not respond to high oil and gas 
        prices as quickly as private lands. These delays also lead to 
        lower overall price responses--fewer overall wells drilled in 
        response to price increases. Our findings indicate that the 
        potential for improving the responsiveness of Federal lands to 
        price signals could be achieved through a reduction in delay in 
        the BLM permitting process.\15\
---------------------------------------------------------------------------
    \15\ Eric C. Edwards, Trevor O'Grady, and David Jenkins, ``The 
Effect of Land Ownership on Oil and Gas Production: A Natural 
Experiment,'' Working Paper, December 2016, https://papers.sioe.org/
paper/2022.html (accessed June 12, 2018).

    While the study examines Federal lands, similar logic could apply 
to Federal waters. Remedying this situation could compensate states 
appropriately through expanded royalty revenue collection. With the 
exception of Alaska, states receive 50 percent of the revenues 
generated by onshore oil and natural gas production on Federal 
lands.\16\ Congress should apply this allocation offshore as well, 
including for current operations in the Gulf of Mexico. If Congress 
successfully transfers the permitting and environmental review to the 
states, the states should receive an even larger share of the royalty 
revenue collected.
---------------------------------------------------------------------------
    \16\ Elizabeth Malm, ``Federal Mineral Royalty Disbursements to 
States and the Effects of Sequestration,'' The Tax Foundation, Fiscal 
Fact Sheet No. 371, May 30, 2013, https://files.taxfoundation.org/
legacy/docs/ff371.pdf (accessed June 12, 2018).
---------------------------------------------------------------------------
    Drilling off states' coasts and allowing them a larger share of the 
royalty revenue would encourage more state involvement in drilling 
decisions. Offshore drilling would also promote state and local 
government participation in allocating funds, helping to close 
deficits, enabling coastal restoration and conservation, and using 
funds for schools.
    More financial stake and control over the regulatory process would 
encourage states to seriously consider the economic benefits and 
minimal risk associated with offshore energy production. In fact, as 
recently as 2013, both Democratic Senators from Virginia offered 
legislation to open parts of the Atlantic to offshore development.\17\ 
A critical component of their legislation was to ensure Virginia 
received royalty revenues similar to states in the Gulf Coast region. 
States may choose not to develop offshore oil, gas, wind, or ocean 
energy projects, and forego the economic benefits increased energy 
production brings.
---------------------------------------------------------------------------
    \17\ News Release, ``Sens. Warner and Kaine Submit Legislation to 
Expand Offshore Energy Leases,'' Office of Senator Mark R. Warner, May 
22, 2013, https://www.warner.senate.gov/public/index.cfm/
pressreleases?ContentRecord_id=3508f696-8280-47d2-97aa-356ec3050f9b 
(accessed June 12, 2018).
---------------------------------------------------------------------------
        multiple year planning processes ignore market realities
    Oil and gas production is a time-consuming and capital-intensive 
operation. A company must win the lease sale or acquire the mineral 
rights, obtain the permits, conduct seismic surveys, build the 
necessary infrastructure, and drill and case the well. The entire 
process can take multiple years and the oil and gas industry makes 
investments considering multiple time horizons. However, the current 5-
year planning process is not the way commercial energy investments 
should be (let alone are, in reality) determined.

    By taking a static approach to dynamic energy markets, the Federal 
Government's current policy disregards how markets function. Energy 
markets are exceedingly complex and prices play a critical role by 
efficiently allocating resources to their highest valued use. 
Investment decisions change as prices change. Oil prices can fluctuate 
significantly from one month to the next, let alone over a 5-year 
window. For example (after adjusting for inflation):

    <bullet> From 2007-2008, the price of oil increased from $66 per 
            barrel to $94 per barrel.

    <bullet> From 2008-2009, the price dropped to $56 dollars per 
            barrel, before increasing to $74 per barrel in 2009-2010.

    <bullet> From 2011-2013, the price increased to above $94 per 
            barrel.

    <bullet> From 2014-2015, the price decreased from $87 per barrel to 
            $44 per barrel.

    <bullet> By 2016, significant increases in supply and less-than-
            projected demand pushed the price down to $38 per 
            barrel.\18\
---------------------------------------------------------------------------
    \18\ See U.S. Energy Information Administration, ``U.S. Crude Oil 
First Purchase Price,'' January 2, 2018, https://www.eia.gov/dnav/pet/
hist/LeafHandler.ashx?n=PET&s=F000000_3&f=A (accessed June 12, 2018).

    Businesses should be able more efficiently respond to such 
fluctuations in price rather than waiting on a lengthy planning process 
and specific lease-sale schedule. As energy companies plan for the 
near- and long-term, the Federal Government should conduct lease sales 
if a commercial interest exists and it does not jeopardize national 
security. It is incumbent upon the company to develop the resources 
safely and responsibly.
    Energy policy should not be predicated on what analysts, Members of 
Congress or Federal regulators think is going to happen. Instead, 
policy should open and establish the framework for competitive markets 
and involvement from the relevant states, while ensuring the protection 
of property rights and the environment.
  the problem of federal ownership and public interest determinations
    Oil and gas production is booming in some regions of the United 
States, while the rate of production in others has slowed or even 
decreased. The divergent trajectories in production primarily boil down 
to one word: ownership. Much of the growth is occurring on private and 
state-owned lands. Despite the tremendous abundance of oil and gas 
beneath Federal lands and off America's coasts, oil and gas output on 
federally owned lands has been mostly stagnant or declining. Companies 
operating in the United States have been the world's largest producers 
of oil and natural gas for 6 years; as a result, the Nation is reaping 
the tremendous economic benefits that such large-scale production 
generates. This success emerged organically from innovation in the 
private marketplace to unlock energy resources formerly thought 
inaccessible rather than from any specific government policy to promote 
these technologies and processes.
    The OCSLA's congressional declaration of policy states that the 
Outer Continental Shelf is a ``vital national resource reserve held by 
the Federal Government for the public, which should be made available 
for expeditious and orderly development, subject to environmental 
safeguards, in a manner which is consistent with the maintenance of 
competition and other national needs.'' \19\ The phrase ``held by the 
Federal Government for the public'' is at the crux of the problem. The 
Federal Government should not hold mineral rights for the public.
---------------------------------------------------------------------------
    \19\ 43 U.S.C. Sec. 1332.
---------------------------------------------------------------------------
    The establishment of national needs, national interest, or public 
interest determinations is broadly problematic for energy development 
and projects. Decisions that should be left to the private sector and 
by price signals are instead left to the Federal Government. For 
instance, national and public interest determinations have been 
manipulated into pretexts to obstruct energy development and energy 
infrastructure.\20\
---------------------------------------------------------------------------
    \20\ For more information on this, see Nicolas Loris, ``Removing 
Restrictions on Liquid Natural Gas Exports: A Gift to the U.S. and 
Global Economies,'' Heritage Foundation Backgrounder No. 3232, July 27, 
2017, https://www.heritage.org/sites/default/files/2017-07/BG3232.pdf.
---------------------------------------------------------------------------
    Unlike air or national security, minerals are not a public good. 
Public goods are non-rival and non-excludable. A non-rival good can be 
consumed at extremely low rates of marginal cost. Non-excludable goods 
are goods that people cannot be easily prevented from consuming. The 
energy that people use to light their schools, heat their homes, and 
move their vehicles is excludable and rival. For example, Katie cannot 
have access to gasoline unless she pays for it. Moreover, when Katie 
purchases a gallon of gas, that gallon cannot be simultaneously 
consumed by another consumer. Natural resources like oil and natural 
gas are privately produced and privately consumed.\21\ Just as the 
Federal Government does not make public or national interest 
determinations for the clothes its citizens purchase, neither should it 
do so for the energy they produce and consume.
---------------------------------------------------------------------------
    \21\ Environmental statutes and regulations internalize the 
negative externalities associated with the burning of conventional 
fuels.
---------------------------------------------------------------------------
    Another serious problem with public interest and national interest 
determinations is concentrating the decisions in the hands of 
government officials and regulators. No concrete definitions exist for 
national or public interest determinations, which introduces 
subjectivity into the determination. For example, the Natural Gas Act 
empowers the Federal Government to reject the import or export of 
natural gas to non-free trade agreement countries if that import or 
export is not ``consistent with the public interest.'' \22\ However, 
the law never specifies what criteria should be considered when 
addressing the public interest. The State Department contends with 
similar opaqueness for the national interest determination when 
deciding on cross-border pipelines. Moreover, the OCSLA gives no 
outline or detail for what the DOI should consider as ``national 
needs.''
---------------------------------------------------------------------------
    \22\ 15 U.S. Code Sec. 717b.
---------------------------------------------------------------------------
    The vagueness of these considerations allows government officials 
to make decisions that properly belong to companies in the private 
sector. Rather than meeting certain criteria, these determinations 
empower regulators to arbitrarily make that determination for the rest 
of the Nation. Government officials will not always make determinations 
on whether to develop resources based on the public interest or even 
objective, transparent science; instead, they may base them on their 
own subjective values.
    The Obama administration's revised 2017-2022 leasing plan is also 
evidence of such subjectivity. Private actors incentivized by the 
profit motive will know much better than regulators in Washington as to 
where, when, and why drilling should take place. That does not preclude 
the need for an environmental review and permitting process, or 
consideration of national security impacts, but the permitting process 
should not be embedded in a 5-year planning process that outlines where 
companies may produce energy in accord with a subjective, extremely 
vague public interest determination.\23\
---------------------------------------------------------------------------
    \23\ Nor does it mean that state regulatory regimes will always 
make sound policy decisions. New York's ban on hydraulic fracturing and 
Florida's request for an exemption are examples of that.
---------------------------------------------------------------------------
                    opening auctions to all parties
    Two of the objectives of the Enhancing State Management of Federal 
Lands and Waters Act are to empower states and provide a fair return 
for taxpayers for producing or not producing public resources that, in 
their current state, belong to all Americans. As detailed in the 
previous section, a number of problems arise from public ownership of 
resources, many of which privatization would solve. Another problem is 
entrusting government officials to make decisions for the American 
people in the name of public interest. As free-market environmentalist 
Jane S. Shaw writes in discussing public choice theory, ``although 
people acting in the political marketplace have some concern for 
others, their main motive, whether they are voters, politicians, 
lobbyists, or bureaucrats, is self-interest.'' \24\ In other words, 
government officials are people, too.
---------------------------------------------------------------------------
    \24\ Jane S. Shaw, ``Public Choice Theory,'' The Concise 
Encyclopedia of Economics (Library of Economics and Liberty, 1993), 
http://www.econlib.org/library/Enc1/PublicChoiceTheory.html (accessed 
June 12, 2018).
---------------------------------------------------------------------------
    Absent privatization, one way Congress could more accurately value 
the land and resources is to open the lease auctions to all interested 
parties. Currently, only energy companies can bid on lease auctions and 
the Federal Government requires leaseholders to demonstrate intent to 
develop the resources. Restricting who bids and requiring the winner 
develop the parcels eliminates competition and fails to assess the 
relative value of the land. Conservationists, recreationists, 
alternative energy companies, ranchers, or environmentalists may value 
the land more for their intended use than for oil and gas development. 
As economist Michael Giberson and research fellow Shawn Regan write in 
their public comment on Federal oil and gas royalties, ``No method 
reliably integrates the variety of diverse, predominantly subjective, 
and sometimes conflicting values into a single, uncontroversial auction 
reserve price.'' \25\
---------------------------------------------------------------------------
    \25\ Michael Giberson and Shawn Regan, ``Public Interest Comment in 
Response to U.S. Department of Interior's Advanced Notice of Proposed 
Rulemaking,'' comment submitted in response to Federal Register, Vol. 
80 (June 5, 2015), p. 22148, June 5, 2015, https://www.regulations.gov/
document?D=BLM-2015-0002-0019 (accessed June 12, 2018).
---------------------------------------------------------------------------
    Opening the leasing process to all interested parties would not 
only create more competition but also potentially more cooperation. An 
environmental organization could pair up with a grazer to bid on a 
block of land. An energy company could coordinate conservationist 
groups to use the land in which both parties can benefit. Natural 
resource extraction would likely still occur, but oil and gas 
production will occur because the energy companies value the land and 
resources more than other contending interests do. As values change 
(for instance, if oil prices rise), buyout programs and lease re-
offerings would ensure that competing interests remain involved in 
current and future land-use decisions. One challenge will be to 
establish a mechanism to compensate taxpayers for lost royalty 
revenues, which the BLM could accomplish by assessing grazing, 
recreation, or other land-use fees.
    Giberson and Regan write, ``In a number of cases private 
conservation groups have negotiated with parties over specific grazing 
rights or oil and gas leases on Federal lands in an effort to protect 
environmental values. As long ago as 1992 the Conservation Fund 
purchased grazing rights in the Glen Canyon National Recreation Area in 
southern Utah. By 2003, at least a half-dozen conservation and 
sportsmen organizations had grazing permit buyout programs. In 2012 the 
Trust for Public Land, a conservation group, worked with a variety of 
other groups and donors to purchase and retire oil and gas leases 
representing 58,000 acres in Wyoming's Hoback Basin from Plains 
Exploration and Production Co.'' \26\
---------------------------------------------------------------------------
    \26\ Ibid.
---------------------------------------------------------------------------
          energy, economic diversity, and environmental safety
    For 6 years, the United States has been the world's leading 
producer in petroleum and natural gas hydrocarbons, which has produced 
astounding economic benefits and put money back into the wallets of 
American families. In fact, in November 2017 the U.S. crude oil 
supplies surpassed 10 million barrels per day, breaking a record high 
from nearly 50 years ago. The extraordinary technological advancements 
in resource extraction have the United States in position to overtake 
Saudi Arabia and Russia as the world's top oil producer. The latest 
projection from the Energy Information Administration estimates that 
U.S. production could reach nearly 12 million barrels per day in 
2019.\27\
---------------------------------------------------------------------------
    \27\ U.S. Energy Information Administration, ``Short-Term Energy 
Outlook (STEO),'' May 2018, https://www.eia.gov/outlooks/steo/pdf/
steo_full.pdf (accessed June 12, 2018).
---------------------------------------------------------------------------
    The story is made more amazing by the fact that Federal energy 
policy actively hindered this energy renaissance as it was taking 
place. Centuries' worth of oil, natural gas, and coal resources lie 
beneath private property as well as under lands owned by state 
governments. While federally owned lands are also full of energy 
potential, a bureaucratic regulatory regime has mismanaged land use for 
decades. The tremendous economic benefits of open energy markets and 
the proven track record of the individual states' regulatory structures 
dictate a re-examination of the way the Federal Government manages 
resources on Federal lands.
    Both onshore and offshore energy production has the potential to 
boost and diversify states' economies. Whether it is hunting, fishing, 
recreation, or seafood production, energy production and other 
industries can work in harmony. Texas, California, North Dakota, 
Oklahoma, Pennsylvania, Colorado, Alaska, and others have demonstrated 
this for periods spanning more than a century and a half.
    When it comes to offshore production, Louisiana is the poster child 
for a state that benefits from an abundance of offshore natural 
resources but also has strong industries in seafood and tourism. With 
more than 80 percent of waterborne U.S. rigs off Louisiana's coast,\28\ 
and with oil and gas production in the Gulf Coast region accounting for 
approximately 18 percent of oil production and 4 percent of natural gas 
production in the United States,\29\ the state has generated 
significant economic benefits. The energy industry contributes tens of 
billions of dollars annually to the economic welfare of the state and 
is a critical part of the state's culture and way of life. In 2014, the 
industry generated $44 billion for the state economy and another $36 
billion when including related infrastructure and refining 
activity.\30\
---------------------------------------------------------------------------
    \28\ Louisiana Economic Development, ``Louisiana's Energy 
Advantages,'' https://www.opportunitylouisiana.com/key-industries/
energy (accessed June 12, 2018).
    \29\ News Release, ``Secretary Zinke Announces Plan For Unleashing 
America's Offshore Oil and Gas Potential.''
    \30\ The Louisiana Mid-Continent Oil and Gas Association and the 
Louisiana Association of Business and Industry, ``Request for 
Information on 2019-2024 Outer Continental Shelf Oil & Gas Leasing 
Program,'' August 17, 2017, http://labi.org/assets/images/media/
LMOGA_LABI_Comments_OCS_Five_Year_Program_Final3589.pdf (accessed June 
12, 2018).
---------------------------------------------------------------------------
    In addition to energy production, seafood and tourism industries 
stand out as significant contributors to Louisiana's economy. Louisiana 
represents 30 percent of the commercial fishing for the continental 
United States and are substantial producers of shrimp, oysters, 
crawfish, and crabs.\31\ Many of the seafood businesses are smaller, 
family-owned operations that have a long and rich history. Annually, 
the industry creates $2.4 billion in economic growth for Louisiana.\32\ 
In 2016, 46.7 million people visited Louisiana, generating $16.8 
billion.\33\
---------------------------------------------------------------------------
    \31\ Ibid.
    \32\ Louisiana Seafood, ``The Backstory,'' http://
www.louisianaseafood.com/industry (accessed June 12, 2018).
    \33\ The Louisiana Mid-Continent Oil and Gas Association and the 
Louisiana Association of Business and Industry, ``Request for 
Information on 2019-2024 Outer Continental Shelf Oil & Gas Leasing 
Program.''
---------------------------------------------------------------------------
    These industries work in harmony. Every year, residents of the Gulf 
region come to Morgan City, Louisiana, to celebrate the lifeblood of 
the region's economy: seafood and oil. The Louisiana Shrimp and 
Petroleum Festival's website emphasizes ``the unique way in which these 
two seemingly different industries work hand-in-hand culturally and 
environmentally in our area.'' \34\ The festival is a tradition that 
dates back more than 80 years. Even the adverse effects of the 
Deepwater Horizon oil rig accident did not disrupt the harmony of the 
state economy. In many respects, the spill strengthened the bond 
between the oil and seafood industry, with shrimpers and fishers alike 
extremely vocal in support of lifting the offshore drilling ban after 
the spill.\35\ At the time, Harlon Pearce, owner of one of the largest 
seafood processors in the state and Chair of Louisiana's Seafood 
Promotion and Marketing Board, said, ``I am not in favor of the 
moratorium. You've got to be down here to see and feel what I'm telling 
you. It's our brothers, uncles, and cousins that are working in the oil 
industry.'' \36\ Ewell Smith, executive director of the Board, said, 
``If you've seen Grand Isle or those [other fishing communities], 
you've seen how much oil and gas and seafood co-exist in this state.'' 
\37\
---------------------------------------------------------------------------
    \34\ Louisiana Shrimp and Petroleum Festival, ``History,'' http://
www.shrimpandpetroleum.org/history (accessed January 25, 2018).
    \35\ Josh Harkinson, ``Oil Rigs and the Fishermen Who Love Them,'' 
Mother Jones, June 24, 2010, https://www.motherjones.com/environment/
2010/06/oil-rigs-moratorium-louisiana-fishermen/ (accessed June 12, 
2018).
    \36\ Ibid.
    \37\ Ibid.
---------------------------------------------------------------------------
    The Rigs to Reef program is another example of how energy 
businesses operating in the Gulf also help the environment. The program 
converts old platforms into artificial reefs.\38\ The reefs provide 
enormous ecological benefits, as a typical eight-legged structure 
provides habitat for 12,000-14,000 fish.\39\ The more than 470 
platforms that serve as artificial reefs in the Gulf are inviting for 
both anglers and divers.\40\ (California, which has more than two dozen 
offshore platforms off its coasts, is considering implementing a 
similar program.\41\)
---------------------------------------------------------------------------
    \38\ U.S. Department of the Interior, Bureau of Safety and 
Environmental Enforcement, ``Rigs to Reefs,'' https://www.bsee.gov/
what-we-do/environmental-focuses/rigs-to-reefs (accessed February 12, 
2018).
    \39\ Ibid.
    \40\ Ibid.
    \41\ Nuala Sawyer, ``California's Defunct Oil Rigs May Become 
Thriving Ocean Reefs Under New Legislation,'' San Francisco Examiner, 
February 17, 2017, http://www.sfexaminer.com/californias-defunct-oil-
rigs-may-become-thriving-ocean-reefs-new-legislation/ (accessed June 
12, 2018).
---------------------------------------------------------------------------
    Whether it is Federal, state or privately owned land, energy 
production underneath America's soil in harmony with other sectors of 
the economy. With the abundance of energy off America's coastline, 
other states have the opportunity to imitate the symbiotic relationship 
between the energy industry and other critical sectors of the economy 
in Louisiana.
                         a better path forward
    The statutes guiding oil and gas development on Federal lands and 
Federal waters are in need of comprehensive reform. The Enhancing State 
Management of Federal Lands and Waters Act would accomplish two 
important objectives in delegating more authority to the states and 
using financial incentives to inform states' decisions. States share 
the cost of the maintenance of Federal lands, whether by the liability 
of no management, the lost opportunity of poor management, or the 
infrastructure needed to support development of resources. States have 
a proven record of managing resources, and already have the regulatory 
structures in place to do so on Federal lands within their boundaries 
as well. Not only would new management multiply benefits for all 
Americans, it would also encourage better care of the environment and 
natural resources by putting them in the hands of people who have an 
immediate stake in wise management. Washington-centric approach to 
management stifles creative, collaborative solutions to competing 
interests that could be resolved at local, state, or regional levels 
without the added baggage of national political battles and Federal 
regulatory processes. While states and local communities may not always 
make perfect decisions, the best environmental policies are site-
specific and situation-specific and emanate from liberty.

    Several ways in which policy makers could improve the draft 
legislation are to:

    <bullet> Specify that if the Secretary of Interior does not make a 
            decision to approve or disapprove of an application for an 
            enhanced management region program, that the plan is 
            approved. Forcing the DOI to issue a decision will prevent 
            the agency from sitting on the application.

    <bullet> Confirm that the Department of the Interior is the lead 
            agency for any section of land where management includes 
            both the Forest Service and Bureau of Land Management. 
            Problems have arisen with competing land-use plans between 
            the Forest Service and the Bureau of Land Management in the 
            past. Designating a lead agency will help avoid any 
            duplication or confusion.

    <bullet> Apply the same reforms to all energy sources and 
            technologies. States should have the same incentives and 
            choices the draft legislation provides to oil and gas 
            production, whether it is a solar farm in Nevada or an 
            offshore wind farm in the Atlantic.

    <bullet> Eliminate the 5-year planning process for offshore 
            leasing. The current 5-year planning process ignores how 
            businesses operate in the face of rapid market and 
            technological changes. Through legislation, Congress should 
            eliminate the 5-year plans and authorize the DOI to conduct 
            lease sales if interest for development exists while 
            weighting the consultation with heavily impacted states in 
            offering those lease sales. Such a reform would allow the 
            safe development of energy off America's coasts while 
            empowering state stakeholders. Removing the lengthy and 
            unnecessary planning process would create a system that is 
            more responsive both to price changes and to the needs and 
            interests of states. The permitting would also need to meet 
            any Department of Defense requirements.

    <bullet> Empower companies, groups, and people that are not energy 
            companies to bid on lease sales. If a conservationist 
            organization values non-production or an alternative use of 
            land or waters, they should be permitted to bid in the 
            auction. Opening up the bidding process would incentivize 
            more competition and potentially more cooperation and could 
            alleviate some of the non-production fees a state would 
            have to pay for failing to develop oil and gas reserves.

    <bullet> Ensure that states have access to resources within their 
            boundaries or off their coasts in the event that the 
            current Administration is hostile to energy production. 
            States have expressed concern over the Department of the 
            Interior's aggressive push to open access to the abundance 
            of resources in the OCS. A number of political and economic 
            factors could force that to change. Just as the Federal 
            Government should not force energy production upon the 
            states, the Department of the Interior (and Department of 
            Agriculture) should not obstruct a state's desire to 
            produce energy and create jobs within their borders and 
            administrative boundaries. Congress and the Federal 
            Government should, at the very least, ensure access to 
            provide the choice to the states to develop natural 
            resources and alternative forms of energy.

    <bullet> Transfer the environmental review and permitting process 
            for offshore energy development to the states. Similar to 
            the draft legislation's proposal that would allow states to 
            assume exclusive jurisdiction over the leasing, permitting, 
            and development of oil and gas operations for enhanced 
            management regions, Congress should amend the OCSLA and SLA 
            to do the same for offshore operations if a state desires 
            to assume responsibility. The state regulatory program 
            would be sufficient in lieu of Federal requirements (e.g., 
            from the Clean Air Act and the National Environmental 
            Policy Act). To support their reviews, state regulators can 
            request technical or safety expertise from the Bureau of 
            Ocean Energy Management and the Bureau of Safety and 
            Environmental Enforcement and use previous DOI 
            environmental assessments. In addition, state regulators 
            would work in conjunction with the Environmental Protection 
            Agency and the U.S. Coast Guard to assess environmental 
            impact and maritime safety and security. States assuming 
            responsibility would also receive a higher percentage of 
            the royalties.

                               conclusion
    For decades, excessive regulations and bureaucratic inefficiencies 
have stymied oil and gas production and prevented the full effects of 
the energy boom. It can take anywhere from 5 to 10 years for a company 
to move from approval to production, with no guarantee that the permit 
obtained will lead to successful crude oil production.\42\ Much of this 
is due to regulatory red tape and Federal control over resource 
production. Authorizing states to manage onshore and offshore resource 
production for a greater percentage of the revenue will create a system 
that permits industry to better respond to changing market conditions. 
The Enhancing State Management of Federal Lands and Waters Act would 
implement significant reforms that involve states more directly with 
the decision-making process, protect the American taxpayers, and align 
incentives for energy production and environmental protection.
---------------------------------------------------------------------------
    \42\ American Petroleum Institute, ``Offshore Leasing, Exploration, 
and Development Process,'' 2013, http://www.api.org/?/media/Files/Oil-
and-Natural-Gas/Exploration/Offshore/Offshore-Process-Feb-2013.pdf 
(accessed January 25, 2018).

---------------------------------------------------------------------------
                                 ______
                                 

    Mr. Gosar. Thank you, Mr. Loris.
    I now recognize Mr. Anderson for his 5 minutes.

   STATEMENT OF MATT ANDERSON, DIRECTOR, COALITION FOR SELF-
 GOVERNMENT IN THE WEST, SUTHERLAND INSTITUTE, SALT LAKE CITY, 
                              UTAH

    Mr. Anderson. Good morning, Chairman Bishop, Chairman 
Gosar, Ranking Member Lowenthal, and members of the 
Subcommittee on Energy and Mineral Resources. Thank you for the 
invitation to speak this morning.
    The West is home to some spectacular landscapes. Towering 
red rock mesas, endless seas of sage brush, and majestic 
mountains make the West's public lands as diverse as they are 
beautiful. This diversity and splendor is not lost on those who 
call the West home. In fact, no one knows or loves these public 
lands more than locals whose history, culture, and future 
depend on the health, accessibility, and the life-sustaining 
resources of these lands. Simply put, public lands are our 
whole world.
    Despite this reality, a narrative persists that state 
management of Federal lands will set aside environmental 
stewardship and recreational activities in favor of 
unrestrained logging, grazing, and extraction practices.
    My testimony aims to debunk this by focusing on the 
extraordinary efforts being taken by western states to balance 
conservation and recreation alongside economic interest.
    When it comes to recreation, western states recognize the 
increased demand, both in the terms of number of people and 
types of recreational activities. Today, there are more hikers, 
mountain bikers, snowmobilers, and off-road enthusiasts than 
ever before in the West.
    We see that western states are stepping up to the plate and 
meeting recreational demands through innovative and popular 
solutions on state lands.
    Despite the perception that state trust lands are managed 
solely for resource extraction, western state trust land 
agencies are accommodating recreational demands while still 
meeting the fiduciary responsibilities. In fact, most western 
state trust lands allow recreational use, either free or 
through the purchase of moderately priced permits.
    Some western states have also elected to lease parcels for 
specific recreational opportunities, like mountain biking, to 
provide a better recreational experience than can be found on 
Federal lands.
    Some state trust agencies are even purchasing land to 
enhance recreation. For example, Montana's land banking program 
allows the sale of state trust lands that have low recreational 
value, and the revenues are used to purchase lands with more 
recreational opportunities.
    The purchased parcels are required to generate more 
revenues than those sold so land banking meets financial and 
recreational demands. Since 2003, 68,000 acres of Montana trust 
lands have been sold, 84 percent of which were surrounded by 
private lands and largely inaccessible.
    In return, nearly 65,000 acres of legally-accessible land 
with recreational opportunities have been purchased.
    Western state parks also provide exceptional recreational 
opportunities and are incredibly popular. In fact, although the 
West state parks make up only one-fifth as much land as 
national parks in the West, they bring in nearly 80 percent as 
many visitors on a per acre basis. This is largely due to the 
types and quality of recreational opportunities they provide 
that are enhanced by developed amenities, like lodges, visitor 
centers, campgrounds, and other guest services. But these parks 
don't solely focus on recreation. They are also known for 
wildlife habitat and environmental preservation.
    Western states are doing much more than designating and 
retaining state parks to preserve the environment, and my home 
state of Utah is no exception.
    Utah has the largest active watershed and wildlife habitat 
restoration program in the United States. The Utah Legislature 
has partnered with local hunters and the Federal Government to 
invest about $14 million annually for conservation and was 
restored almost 1.5 million acres since 2005.
    In 2014, the Utah State Legislature passed the Utah 
Wilderness Act, recognizing the importance of protecting the 
wilderness areas and providing a path for preserving state 
lands as state wilderness areas. And most recently, many of 
Utah State officials have thrown their support behind House 
Bill 4532, which prohibits mineral extraction within 1.35 
million acres of the Bears Ears region.
    These types of efforts are being led and conducted across 
the West. You see, Westerners understand and embrace the 
reality that local decision making and sensible land management 
are not mutually exclusive and appreciate this recognition by 
the Enhancing State Management of Federal Lands and Waters Act.
    However, we at Sutherland maintain that more can and should 
be done if this legislation's intent is to make localism the 
guiding principle of Federal land management. If states are 
wise and experienced enough to make decisions regarding oil and 
gas drilling on public lands, then don't they have the capacity 
to manage recreational opportunities, logging, grazing, 
wildlife, and environmental protection as well?
    As is evidenced by the cited example, there is no hard and 
fast rule as to what gets priority on public lands under state 
management. Instead, local voices, expertise, values, and 
circumstances guide the sustainable uses over state land 
management and should do the same for Federal multiple-use 
public lands. Under this approach, states become the agent of 
the Federal Government in setting multiple-use priorities on 
publicly-controlled Federal lands to the benefit of the public, 
state and Federal budgets, and the lands themselves.
    Localism would drive better public land management by 
leveraging local knowledge and manpower while maintaining the 
opportunity for Federal guideposts to protect against bad 
actors. In short, if localism is a good approach for oil and 
gas drilling, then why not further uses on our public lands. 
Thank you.

    [The prepared statement of Mr. Anderson follows:]
 Prepared Statement of Matthew Anderson, Director of the Coalition for 
     Self-Government in the West, a project of Sutherland Institute
    Good morning, Chairman Bishop, Chairman Gosar, Ranking Member 
Lowenthal, and members of the Subcommittee on Energy and Mineral 
Resources. Thank you for the invitation to speak.
    The West is home to some spectacular landscapes. Towering red rock 
mesas, endless seas of sagebrush and majestic mountains make the West's 
public lands as diverse as they are beautiful. This diversity and 
splendor is not lost on those who call the West home. In fact, no one 
knows or loves these public lands more than locals whose history, 
culture and future depend on the health, accessibility and the life-
sustaining resources of these lands. Simply put, public lands are our 
whole world.
    Despite this reality, a narrative persists that state management of 
Federal lands will set aside environmental stewardship and recreational 
activities in favor of unrestrained logging, grazing and extraction 
practices. My testimony aims to debunk this by focusing on the 
extraordinary efforts being taken by western states to balance 
conservation and recreation alongside economic interests.
    When it comes to recreation, western states recognize the increased 
demand, both in terms of the number of people and the types of 
recreational activities. Today, there are more hikers, mountain bikers, 
snowmobilers, and off-road enthusiasts than ever before in the West. We 
see that western states are stepping up to the plate and meeting 
recreational demand through innovative and popular solutions on state 
lands.
    Despite the perception that state trust lands are managed solely 
for resource extraction, western state trust land agencies are 
accommodating recreational demands while still meeting their fiduciary 
responsibilities. In fact, most western state trust lands allow 
recreational use--either free or through the purchase of a moderately 
priced permit. Some western states have also elected to lease parcels 
for specific recreational opportunities, like mountain biking, to 
provide a better recreational experience than can be found on Federal 
lands. Some state trust agencies are even purchasing land to enhance 
recreation. For example, Montana's Land Banking Program allows the sale 
of trust lands that have low recreational value, and the revenues are 
used to purchase lands with more recreational opportunities. The 
purchased parcels are required to generate more revenues than those 
sold, so land banking meets financial and recreational demands. Since 
2003, 68,000 acres of Montana trust lands have been sold, 84 percent of 
which were surrounded by private lands. In return, nearly 65,000 acres 
of legally accessible land with recreational opportunities have been 
purchased.
    Western state parks also provide exceptional recreational 
opportunities and are incredibly popular. In fact, although the West's 
state parks make up only one-fifth as much land as national parks in 
the West, they bring in nearly 80 percent as many visitors on a per-
acre basis. This is largely due to the types and quality of 
recreational opportunities they provide that are enhanced by developed 
amenities like lodges, visitor centers, campgrounds and other guest 
services. But these parks don't solely focus on recreation; they also 
manage for wildlife habitat and environmental preservation.
    Western states are doing much more than designating and maintaining 
state parks to preserve the environment, and my home state of Utah is 
no exception. Utah has the largest active watershed and wildlife 
habitat restoration program in the United States. The Utah Legislature 
has partnered with local hunters and the Federal Government to invest 
approximately $14 million annually for conservation and has restored 
almost 1.5 million acres since 2005. In 2014, the Utah State 
Legislature passed the Utah Wilderness Act--recognizing the importance 
of protected wilderness areas and providing a path for preserving state 
lands as state wilderness areas. And most recently, many of Utah's 
state officials have thrown their support behind HB 4532, which 
prohibits mineral extraction within 1.35 million acres of the Bears 
Ears region. These types of efforts are being led and conducted across 
the West.
    You see, Westerners understand and embrace the reality that local 
decision making and sensible land management are not mutually exclusive 
and appreciate this recognition by the Enhancing State Management of 
Federal Lands and Waters Act.
    However, we at Sutherland Institute maintain that more can and 
should be done, if the legislation's intent is to make localism the 
guiding principle of Federal land management. If states are wise and 
experienced enough to make decisions regarding oil and gas drilling on 
public lands, then don't they have the capacity to manage recreational 
opportunities, logging, grazing, wildlife and environmental protection 
as well?
    As is evidenced by the cited examples, there is no hard and fast 
rule as to what uses get priority on public lands under state 
management. Instead, local voices, expertise, values and circumstance 
guide the sustainable uses of our state land management and should do 
the same for our Federal multiple-use public lands. Under this 
approach, states become the agent of the Federal Government in setting 
multiple-use priorities on federally controlled public lands, to the 
benefit of the public, state and Federal budgets, and the lands 
themselves. Localism would drive better public land management by 
leveraging local knowledge and manpower, while maintaining the 
opportunity for Federal guideposts to protect against bad actors. In 
short, if localism is a good approach for oil and gas drilling, then 
why not for other uses?

                                 ______
                                 

    Mr. Gosar. Thank you, Mr. Anderson.
    I now recognize Mr. Cahoon for his 5-minute testimony.

  STATEMENT OF MAYOR BEN CAHOON, BOARD OF COMMISSIONERS, NAGS 
                      HEAD, NORTH CAROLINA

    Mr. Cahoon. Good morning, Chairman Gosar, Ranking Member 
Lowenthal, and honorable Committee members. My name is Ben 
Cahoon, and I am the mayor of Nags Head, North Carolina, and I 
am a Republican.
    I greatly appreciate the opportunity to testify before you 
today. My testimony will cover the impacts of seismic air gun 
blasting and offshore drilling, the legal and transparency 
problems associated with seismic air gun blasting, the 
absurdity of creating new financial penalties for coastal 
states that oppose drilling, the devastating economic 
consequences that offshore drilling and seismic testing could 
bring to our coast, the threat to existing national security 
operations, and the large and widespread bipartisan opposition 
to offshore drilling and seismic air gun blasting.
    Proponents of seismic air gun blasting often 
mischaracterize an old quote from Dr. Bill Brown of BOEM, 
claiming that seismic air gun blasting has no impact on marine 
mammal populations. However, there is a substantial body of 
peer-reviewed science showing that seismic air gun blasting 
negatively affects marine mammals, potentially even at the 
population level. For example, whales exposed to seismic air 
gun noise stop producing vocalizations that are essential to 
their feeding, avoiding predators, breeding, and raising their 
young.
    Scientific studies show behavioral and physiological 
impacts to marine life. These include killing zooplankton 
causing mass mortality and immune system damage to scallops, 
causing oysters to stop feeding and breeding, depressing long-
line cod and haddock catch by 70 to 80 percent, and a 78 
percent decline in reef fish abundance after seismic air gun 
blasting was conducted in the area.
    Proponents for testing and drilling often argue that 
seismic tests are necessary to provide coastal communities with 
data about oil and gas deposits off their shores to assess 
whether it makes economic sense to move forward with drilling 
for those resources. But that information is considered 
propriety by the private companies conducting them. Local 
decision makers won't have access to it nor will the public. 
Not even Members of Congress can get their hands on it.
    Currently, there are at least five companies awaiting final 
permits from BOEM to conduct seismic testing along the Atlantic 
Coast. Most of these companies are foreign and will not be 
investing in our communities. Therefore, BOEM is literally 
putting foreign business interests ahead of our hard-working 
American workers who are dependent on healthy ocean ecosystems 
for survival.
    This bill would create financial penalties for coastal 
states where there has been no offshore drilling in decades. I 
will cover the overwhelming opposition in more detail later, 
but nearly every East and West Coast governor has spoken out 
against this Administration's proposal to open nearly all 
waters to new offshore drilling for the first time in over 30 
years. Creating financial penalties for these states, where 
coastal businesses depend on clean and healthy oceans, would 
just establish a revenue scheme to transfer money from the 
states to the Federal Government. Coastal states should not be 
penalized for protecting their existing economic interests.
    Based on a rough estimate, using the methodology outlined 
in the draft legislation, states could be forced to pay 
hundreds of millions of dollars just to protect their thriving 
coastal economies. It is inappropriate, and once again, 
Washington is pushing its beliefs onto local citizens instead 
of listening to their vehement opposition.
    Oil and gas development poses a real threat to the fishing, 
tourism, and recreation-based businesses along the East and 
West Coasts that each year generate around $180 billion in 
gross domestic product and support nearly 2.6 million jobs.
    The President's newly proposed national OCS program also 
proposes to offer leases in areas that have extensive military 
operations, thus risking our national security training and 
readiness.
    The draft plan deviates from the long-standing tradition of 
deference to the Department of Defense when offering leases in 
Federal waters. Secretary Zinke famously met with Florida 
Governor Rick Scott on the tarmac of the Tallahassee airport, 
where the Secretary announced that, due to the Governor's 
opposition to Florida being included in the 5-year plan and 
Florida's unique coastal environment and tourism, the state 
would be removed from the 5-year plan. That is great that the 
Governor and Secretary are listening to state and local 
leaders, but nearly every other state along the Atlantic Coast 
has requested the same meeting and treatment Governor Scott 
received.
    Offshore drilling in any new areas is not the answer. 
Unfortunately, this legislation would place an absurd penalty 
on coastal states requiring states to pay the Federal 
Government to protect their coast, potentially costing 
taxpayers millions of dollars. Creating a ransom for coastal 
states to protect their coastal economy's way of life and 
military readiness violates core conservative principles.
    I urge this Committee to reject this draft and any calls to 
penalize coastal states for protecting their coastal economies.
    I thank you for the opportunity to testify here today, and 
I look forward to answering your questions.

    [The prepared statement of Mr. Cahoon follows:]
  Prepared Statement of the Honorable Benjamin Cahoon, Mayor of Nags 
                          Head, North Carolina
    Good morning, Chairman Gosar, Ranking Member Lowenthal, and 
honorable Committee members. My name is Ben Cahoon, and I am the Mayor 
of Nags Head, North Carolina, and I am a Republican. I greatly 
appreciate the opportunity to testify before you today about the 
importance of protecting our coasts from expanded offshore drilling and 
seismic airgun blasting. My testimony today will cover: (1) the impacts 
of seismic airgun blasting and offshore drilling; (2) the legal and 
transparency problems associated with seismic airgun blasting; (3) the 
absurdity of creating new financial penalties for coastal states that 
oppose drilling; (4) the devastating economic consequences that 
offshore drilling and seismic testing could bring to our coast; (5) the 
threat to existing national security operations; and (6) the large/
widespread, bipartisan opposition to offshore drilling and seismic 
airgun blasting.
        impacts of seismic airgun blasting and offshore drilling
    Dangerous exploration for offshore oil involves seismic airguns 
shooting loud blasts of compressed air through the ocean and into the 
seafloor.\1\ These loud blasts are repeated every 10-12 seconds \2\ for 
days, weeks or months at a time.\3\ These seismic airguns are one of 
the loudest sources of noise in the oceans.\4\ According to the 
National Oceanic and Atmospheric Administration (NOAA), the sound from 
seismic airguns can be recorded from sites more than 1,860 miles away, 
equivalent to the distance from Washington, DC all the way to Las 
Vegas.
---------------------------------------------------------------------------
    \1\ Goold C, Fish P (1998) Broadband spectra of seismic survey air-
gun emissions with reference to dolphin auditory thresholds. Acoustical 
Society of America. 103(4), 2177-2184.
    \2\ National Research Council (2003) Ocean Noise and Marine 
Mammals. Washington, DC: The National Academies Press.
    \3\ Blackwell S, et al. (2015) Effects of Airgun Sounds on Bowhead 
Whale Calling Rates: Evidence for Two Behavioral Thresholds. PLoS ONE 
10.6.
    \4\ Badelt B (2015). The Inventor of the Seismic Air Gun Is Trying 
to Supplant His Controversial Creation. Hakai Magazine. Available: 
https://www.hakaimagazine.com/article-short/inventor-seismic-air-gun-
trying-supplant-his-controversial-creation.
---------------------------------------------------------------------------
    Scientists agree that seismic airgun blasts could alter marine 
mammals' behavior, affecting their migration patterns, mating habits 
and how they communicate with each other. Most animals in the ocean use 
sound the way animals on land use eyesight; saturating their 
environment with noise will have an impact. NOAA estimates that marine 
animals like dolphins and whales could be harmed hundreds of thousands 
of times.
    Proponents of seismic airgun blasting often mischaracterize an old 
quote from Dr. Bill Brown of BOEM, claiming that seismic airgun 
blasting has no impact on marine mammal populations--``populations'' 
being the key qualifier. However, there is a substantial body of peer-
reviewed science showing that seismic airgun blasting negatively 
affects marine mammals, potentially even at the population level. For 
example, whales exposed to seismic airgun noise stop producing 
vocalizations that are essential to feeding, avoiding predators, 
breeding, and raising their young. In the baleen whales, these impacts 
can occur across vast distances, as much as 100,000 square kilometers 
or more around a single seismic array. Recent science shows that there 
are population level impacts.\5\
---------------------------------------------------------------------------
    \5\ E.g., Castellote, M., Clark, C.W., and Lammers, M.O., Acoustic 
and behavioural changes by fin whales (Balaenoptera physalus) in 
response to shipping and airgun noise. Biological Conservation 147: 
115-122 (2012); Cerchio, S., Strindberg, S., Collins, T., Bennett, C., 
and Rosenbaum, H., Seismic surveys negatively affect humpback whale 
singing activity off Northern Angola. PLoS ONE 9(3): e86464 (2014); 
Blackwell, S.B., Nations, C.S., McDonald, T.L., Thode, A.M., Mathias, 
D., Kim, K.H., Greene, C.R., Jr., and Macrander, M., Effects of airgun 
sounds on bowhead whale calling rates: Evidence for two behavioral 
thresholds. PLoS ONE 10(6): e0125720 (2015).
---------------------------------------------------------------------------
    Furthermore, scientific studies show behavioral and physiological 
impacts to marine life. These include a 2017 study documenting seismic 
airgun blasting killing zooplankton up to three-quarters of a mile 
away; \6\ a 2017 study documenting seismic airgun blasting causing mass 
mortality in scallops and severely impacting the remaining scallops' 
immune systems; \7\ a 2017 study documenting that seismic airgun 
blasting increases stress levels, which according to the study, causes 
the oysters to stop feeding and breathing; \8\ a 2017 study documenting 
seismic airgun blasting decreasing the white blood cell counts in spiny 
lobsters, leading to higher rates of immune infections; \9\ a study 
documenting seismic airgun blasting depressing longline cod and haddock 
catch by 70-80 percent; \10\ and a 2017 study documenting a 78 percent 
decline in reef-fish abundance after seismic airgun blasting was 
conducted in the area.\11\
---------------------------------------------------------------------------
    \6\ McCauley R, et al. (2017) Widely used marine seismic survey air 
gun operations negatively impact zooplankton. Nature Ecology & 
Evolution. Article number: 0195. doi:10.1038/s41559-017-0195.
    \7\ Day R, et al. (2017) Exposure to seismic air gun signals causes 
physiological harm and alters behavior in the scallop Pecten fumatus. 
Proceedings of the National Academy of Sciences of the United States 
114(40): E8537-E8546, doi: 10.1073/pnas.1700564114.
    \8\ Charifi M, et al. (2017) The sense of hearing in the Pacific 
oyster, Magallana gigas. PLoS ONE 12(10): e0185353. https://doi.org/
10.1371/journal.pone.0185353.
    \9\ Fitzgibbon Q, et al. (2017) The impact of seismic air gun 
exposure on the haemolymph physiology and nutritional condition of 
spiny lobster, Jacus edwardsii. Marine Pollution Bulletin. 125: 146-
156.
    \10\ Engas A, et al. (1996) Effects of seismic shooting on local 
abundance and catch rates of cod (Gadus morhua) and haddock 
(Melanogrammus aeglefinus). Canadian Journal of Fisheries and Aquatic 
Sciences, 53:2238-2249. doi: 10.1139/cjfas-53-10-2238.
    \11\ Paxton A, et al. (2017) Seismic survey noise disrupted fish 
use of a temperate reef. Marine Policy. 78:68-73. doi: 10.1016/
j.marpol.2016.12.017.
---------------------------------------------------------------------------
    When the industry proceeds from seismic surveys to exploratory 
drilling or production, the risks of harm become even greater for 
coastal communities that rely upon a clean coast. Once drilling begins, 
we know that accidents happen in a world where human error, mechanical 
imperfections and coastal hurricanes all play unexpected roles. When 
you drill, you spill. It is inevitable.
    We saw what happened in the Gulf of Mexico in 2010 when the 
exploratory BP Deepwater Horizon rig spilled millions of barrels of oil 
into the Gulf. It was a disaster, but at least the Gulf's bowl-like 
shape contained the spill in that region. A similar spill off the 
Atlantic Coast would be a disaster of epic proportions. If oil entered 
the Gulf Stream, it could be carried into the Chesapeake Bay, the 
Hudson River Valley, the Gulf of Maine, and the Grand Banks, which are 
some of the richest fishing grounds in the world.
    The Gulf of Mexico BP Deepwater Horizon blowout showed that oil 
cannot be removed from salt marshes and other wetland systems. It can 
remain in the sediments for decades. Coastal salt marshes in North 
Carolina are among the most productive ecosystems in the world and are 
nursery grounds for many estuarine and marine species. Toxic substances 
from oil spills, both chronic and acute, will put all of these 
organisms at risk.
    Even if a major spill never occurs--and both the oil industry and 
the Federal Government admit that spills are inevitable--there's still 
an adverse impact to North Carolina's coast in that the land-based 
infrastructure necessary to support offshore drilling is dirty and 
highly industrial. Also, the infrastructure required to transport 
offshore oil is devastating. For example, a series of canals built 
across Louisiana wetlands to transport oil has led to vast destruction 
of marshlands. Healthy marshlands are a critical component of our 
ecosystem.
    Sometimes we hear elected officials claim that they want to explore 
and drill for natural gas only, while leaving the oil in the ground. 
One doesn't explore for just gas. According to current law, oil and gas 
companies are required to operate their wells to ``maximize ultimate 
recovery.'' \12\ When oil and gas occur together in a reservoir, as the 
oil is produced, the gas cap expands helping to remove the oil, 
essentially pushing it out of the pore spaces in the rocks. When 
exploration wells are drilled, one finds oil and/or gas and/or water 
and/or nothing. Then the oil company determines if it's economical to 
produce the reserves they found, and if so, submits a plan to BOEM 
about how they will produce the well.
---------------------------------------------------------------------------
    \12\ 30 CFR Sec. 250.1150. Available: https://www.gpo.gov/fdsys/
pkg/CFR-2013-title30-vol2/pdf/CFR-2013-title30-vol2-sec250-1150.pdf.
---------------------------------------------------------------------------
       legal and transparency issues with seismic airgun blasting
    Proponents for testing and drilling often argue that seismic tests 
are necessary to provide coastal communities with data about oil and 
gas deposits off their shores to assess whether it makes economic sense 
to move forward with drilling for those resources. But that information 
is considered proprietary by the private companies conducting them. 
Local decision makers won't have access to it, nor will the public. Not 
even Members of Congress can get their hands on it.
    Currently, there are at least five companies awaiting final permits 
from the Bureau of Ocean Energy Management (BOEM) to conduct seismic 
testing along the Atlantic Coast. Most of these companies are foreign 
and will not be investing in our communities. In fact, Reuters reported 
that a French-based company, CGG, is dependent on the Atlantic contract 
to avoid bankruptcy.\13\ Therefore, BOEM is literally putting foreign 
business interests ahead of hard-working American workers who are 
dependent on healthy ocean ecosystems for survival.
---------------------------------------------------------------------------
    \13\ French oil services firm CGI files for bankruptcy. Reuters 
(2017). Available: https://www.reuters.com/article/france-cgg/french-
oil-services-firm-cgg-files-for-bankruptcy-idUSL8N1JB6H8. Accessed 
January 17, 2018.
---------------------------------------------------------------------------
          absurdity of financial penalties for coastal states
    This bill would create financial penalties for coastal states where 
there has been no offshore drilling in decades. I'll cover the 
overwhelming opposition in more detail later, but nearly every East and 
West Coast governor has spoken out against the Trump administration's 
proposal to open nearly all waters to new offshore drilling for the 
first time in over 30 years. Creating financial penalties for these 
states, where coastal businesses depend on clean and healthy oceans, 
would just establish a revenue scheme to transfer money from states to 
the Federal Government. This approach is outrageous, and I urge this 
Committee to reject this attempt to hold states like mine hostage. 
Coastal states should not be penalized for protecting their existing 
economic interests.
    Based on a rough estimate, using the methodology outlined in the 
draft legislation, states could be forced to pay hundreds of millions 
of dollars just to protect their thriving coastal economies, including 
massive penalties to the Federal Government for not opening their 
coastline to dirty and dangerous offshore drilling.
    It's inappropriate, and once again, Washington is pushing its 
beliefs onto local citizens, instead of listening to their vehement 
opposition.
  economic impact and risks of expanded offshore drilling and seismic 
                            airgun blasting
    Oil and gas development poses a real threat to the fishing, 
tourism, and recreation-based businesses along the East and West Coasts 
that each year generate around $180 billion in gross domestic product 
and support nearly 2.6 million jobs. The BP Deepwater Horizon oil spill 
caused 10 million lost days of beach, fishing, and boating activity. 
Many leisure travelers stayed away from Florida's Gulf Coast in the 
months following the spill, even in areas that did not have oil on 
their beaches.
    The Federal Energy Information Administration now predicts the 
Nation will be a net energy exporter within a decade--for the first 
time since the 1970s. There's no need for offshore oil production off 
North Carolina's coast, especially in light of the costs noted above.
    The American Petroleum Institute says oil and gas drilling could 
result in $3.3 billion to North Carolina over a two-decade period. That 
sounds like a fairly big number, but according to ``Visit North 
Carolina,'' which is a part of the Economic Development Partnership of 
North Carolina, tourists in North Carolina spent nearly 10 times that 
amount--more than $20 billion--in 2016 alone.\14\ Even the most 
lucrative oil and gas scenario would generate roughly 1 percent of the 
economic impact tourism has on the state. Further, these industries do 
not live harmoniously. Along the Gulf Coast, beach goers are provided 
with wipes to clean the oil and tar balls from their feet after walking 
on the beach. To the residents of North Carolina, that scenario is 
unacceptable, as our beaches are major revenue generators and part of 
our way of life. Moreover, tourism revenue increases every year with no 
signs of that trend slowing; the same cannot be said of the demand for 
oil.
---------------------------------------------------------------------------
    \14\ https://partners.visitnc.com/contents/sdownload/67490/file/
2016-Economic-Impact-of-Travel-on-North-Carolina-Counties-revised.pdf.
---------------------------------------------------------------------------
    The economically recoverable amount of oil and gas that could be 
produced off North Carolina's coast, according to Department of the 
Interior estimates, would meet U.S. demand for roughly 65 of oil and 57 
days of gas, and there's no guarantee that the drilling will pan out at 
all. There's so little oil, and the risk is far too great. It's not 
worth the risk for North Carolina when we look at how much GDP and how 
many jobs are generated by healthy ocean ecosystems including fishing, 
recreation and tourism. In 2016 alone, these industries generated over 
$2.5 billion in GDP and nearly 57,000 jobs.\15\ Risking our ocean and 
way of life is not worth the economic trade-off.
---------------------------------------------------------------------------
    \15\ Clean Coast Economy, by Oona Watkins and Kevin He, Oceana, 
March 2018.
---------------------------------------------------------------------------
            threat to existing national security operations
    The President's newly proposed National OCS Program also proposes 
to offer leases in areas that have extensive military operations, thus 
risking our national security training and readiness. The draft plan 
deviates from the long-standing tradition of deference to the 
Department of Defense (DoD) when offering offshore drilling leases in 
Federal waters. The Atlantic and Eastern Gulf of Mexico are home to 
critical coastal military facilities, including Norfolk Naval Station--
the largest naval station in the world. In the Atlantic Ocean, DoD 
conducts extensive readiness operations including live fire tests, air-
to-surface bombing exercises, homing torpedo testing, supersonic test 
flights, laser targeting operations, and both Naval Air and Sea Systems 
Command. DoD's 2015 report on mission compatibility with offshore 
leasing indicated that significant restrictions on oil and gas activity 
in the Mid-Atlantic and South Atlantic planning regions would be 
necessary to ensure that DoD activities would not be impaired.
    Furthermore, DoD has made it clear that the continuation of the 
moratorium on oil and gas leasing in the Eastern Gulf of Mexico is 
essential to vital military readiness activities. An April 2017 letter 
from the Office of the Under Secretary of Defense states, ``The 
Department of Defense (DoD) cannot overstate the vital importance of 
maintaining this moratorium.'' The letter continues, ``The moratorium 
on oil and gas `leasing, pre-leasing, and other related activities' 
ensures that these vital military readiness activities may be conducted 
without interference and is critical to their continuation. Emerging 
technologies . . . will require enlarged testing and training 
footprints, and increased DoD reliance of the Gulf of Mexico Energy 
Security Act's moratorium beyond 2022.'' A separate June 2017 letter 
from the Air Force states, ``The moratorium is essential for developing 
and sustaining the Air Force's future combat capabilities.''
    The Department of Defense hosts a wide variety of training and 
testing activities critical to military readiness and our national 
security. The Department's own public statements make it clear that new 
leasing could create conflict with long-standing operations throughout 
the Atlantic. It makes no sense to put my home state of North Carolina 
or any new areas at risk when the proposal presents a direct threat to 
our national security.
 bipartisan opposition to offshore drilling and seismic airgun blasting
    By bringing offshore drilling to shores where Americans have 
already spoken vehemently against it, this proposed legislation 
undermines Congress' commitment to local and state decision making.
    Recently, Secretary Zinke met with Florida Governor Rick Scott on 
the tarmac of the Tallahassee Airport, where in front of several TV 
cameras, the Secretary announced that due to the Governor's opposition 
to Florida being included in the 5-year plan, and Florida's unique 
coastal environment and tourism, the state would be removed from the 5-
year plan. While that is great that the Governor and Secretary are 
listening to state and local leaders, nearly every other state along 
the Atlantic Coast has requested the same meeting and treatment Gov. 
Scott received. In fact, on the East Coast, governors from Florida, 
South Carolina, North Carolina, Virginia, Maryland, Delaware, New 
Jersey, New York, Rhode Island, New Hampshire, Connecticut, and 
Massachusetts all oppose the draft 5-year plan for 2019-2024. It should 
be noted that the governor of Georgia has recently shifted his position 
from supporting more offshore drilling off their coast to expressing 
concerns with this new national OCS program. Additionally, it will not 
be clear whether Florida is removed, formally, until the Proposed 
Program is released.

    As of today, opposition and concern over offshore drilling 
activities includes:

    <bullet> Bipartisan opposition and concern from governors of 
            Florida, Georgia, South Carolina, North Carolina, Virginia, 
            Maryland, Delaware, New Jersey, New York, Connecticut, 
            Rhode Island, Massachusetts, New Hampshire, Washington, 
            Oregon and California

    <bullet> More than 275 East Coast and Pacific Coast municipalities

    <bullet> Bipartisan opposition from more than 1,700 local, state 
            and Federal elected officials

    <bullet> An alliance representing over 43,000 East Coast businesses 
            and 500,000 fishing families

    <bullet> An alliance representing over 1,000 West Coast businesses

    <bullet> The New England, Mid-Atlantic, South Atlantic and Pacific 
            fishery management councils

    <bullet> Commercial and recreational fishing interests such as the 
            Southeastern Fisheries Association, Fisheries Survival 
            Fund, Southern Shrimp Alliance, The Billfish Foundation and 
            the International Game Fish Association

    <bullet> NASA, the Department of Defense, U.S. Air Force and the 
            Florida Defense Support Task Force

    Offshore drilling in any new areas is not the answer. 
Unfortunately, this legislation would place an absurd penalty on 
coastal states, requiring states to pay the Federal Government to 
protect their coast, potentially costing taxpayers millions of dollars. 
Creating a ransom for coastal states to protect their coastal 
economies, way of life, and military readiness violates core 
conservative principles. I urge this Committee to reject this draft and 
any calls to penalize coastal states for protecting their coastal 
economies.

    I thank you for the opportunity to testify here today, and I look 
forward to answering your questions.

                                 ______
                                 

    Mr. Gosar. Thank you, Mr. Cahoon.
    I now recognize Mr. Ebell for his 5 minutes.
    Welcome.

   STATEMENT OF MYRON EBELL, DIRECTOR, CENTER FOR ENERGY AND 
 ENVIRONMENT, COMPETITIVE ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Ebell. Thank you, Chairman Gosar, and thank you for 
inviting me to testify today.
    I apologize for being late. I am very interested by your 
draft discussion bill. I think a lot of thought has gone into 
it, and a lot of thought is going to go into it in the future 
as you work out the details.
    I would like to say that as part of the President's agenda 
to get the economy moving again, this is a very important part. 
The energy renaissance in the United States, because of the 
shale oil and gas revolution, is going to go forward whether 
this bill happens or not. America is going to become, and I 
think already is today, the world's leading energy producer. 
Over 80 percent of the world's energy comes from coal, oil, and 
natural gas. That was true 30 years ago. It was true 20 years 
ago. It is true today.
    It is projected to be true 10, 20 and 30 years from now. 
But the pie keeps getting bigger; that is, the world's energy 
demands keep growing. Most of that energy is going to come from 
coal, oil, and natural gas.
    So, whether or not the Federal lands and offshore areas 
take their place as major energy producers, the United States 
is going to be leading the way. But as someone who comes from a 
Federal lands state and has watched the mismanagement of our 
Federal lands lead to economic decline for decades, our mineral 
resources in some parts of the West are a very important part 
of getting rural economies going again.
    Not only does energy production on Federal land create 
wealth for the whole economy, it creates wealth for local 
people. Having seen the stagnation of oil and gas production on 
Federal land is very worrying, and I think your proposal to 
turn it over to the states, the management of oil and gas 
leasing, is a very good way to get around the mismanagement 
that the BLM doesn't seem to be able to fix.
    As far as the coastal provisions, in my testimony, I have 
emphasized the need for the first section, which is to do a 
comprehensive geologic survey, the mapping section of your 
bill. It is very important in making public policy to base it 
on information and not on the lack of information. And as you 
know, on all of the Federal lands issues, there is a lack of 
systematic information. In fact, the BLM land annual that shows 
land ownership is highly defective. We need a survey of all the 
Federal lands and what lands have been withdrawn in various 
categories, including mineral withdrawals.
    I would like to conclude by going to the second section of 
the offshore proposal, the idea that if a state wants a 
moratorium on offshore development, they can actually get it; 
they don't have to try to apply political pressure so that one 
state gets a special deal and another state does not. They can 
actually say: we want a moratorium, and here is what we are 
willing to pay for it.
    So, I think this is a real solution to a very thorny issue 
of federalism. And I applaud the Committee's creative thinking 
on this. I wish I had thought of it. I am glad you did. And I 
think, in addition to revenue sharing, adding royalty sharing 
to the offshore states, which provides a powerful incentive to 
want to have offshore oil production, that, in addition to that 
incentive, having the ability of the state to actually say, 
``No, we don't want it,'' really balances the incentive very 
well.
    I think you have done a really good job putting those two 
things together. The offshore states do deserve royalty sharing 
just as the Federal land states, like New Mexico and Wyoming, 
who, as you know, a huge part of their budget is dependent upon 
Federal royalty sharing.
    So, thank you.

    [The prepared statement of Mr. Ebell follows:]
  Prepared Statement of Myron Ebell, Director, Center for Energy and 
     Environment, Competitive Enterprise Institute, Washington, DC
    Chairman Gosar, Ranking Member Lowenthal, and members of the 
Committee, thank you for inviting me to testify today on the draft 
discussion bill, ``Enhancing State Management of Federal Lands and 
Waters Act.'' My name is Myron Ebell, and I am director of the Center 
for Energy and Environment at the Competitive Enterprise Institute 
(CEI), a non-profit, non-partisan public policy institute that focuses 
on regulatory issues from a free-market and limited-government 
perspective. CEI accepts no government funding. CEI and I have been 
involved in a wide range of Federal lands and energy policy issues 
since the late 1980s.
    I especially appreciate the opportunity to comment on this bill 
while it is still in the drafting process. Let me begin with the 
offshore energy title. The first section of the offshore title amends 
the Outer Continental Shelf Lands Act of 1953 to require the 
establishment within 1 year of a program ``to conduct geological and 
geophysical mapping of the outer continental shelf, including mapping 
of reserves of oil and gas.'' In my view, this is a critical provision. 
The most recent National Assessment published in August 2017 of 
technically recoverable undiscovered resources made by the Bureau of 
Ocean Energy Management of 90 billion barrels of oil and 327 trillion 
cubic feet of natural gas in the 1.7 billion acre Federal offshore 
estate is no doubt a well-informed guess, but it is really only a 
guess. Much of the data comes from geologic studies that are one, two, 
or even three decades old, and the assessment is thus based on outdated 
technology and scientific understanding that has been superseded by 
subsequent research. A comprehensive survey based on current geological 
knowledge and using up-to-date techniques, including seismic testing, 
is long overdue.
    When similar geological surveys have been proposed in the past, 
they have never gotten started in the face of objections that they will 
cost too much and take too long. Undoubtedly, the same objections will 
be raised again in an effort to remove this provision from the bill. In 
my view, the objections of time and money are real, but are far 
outweighed by the value of having much better information about the 
extent and location of America's offshore energy resources. Incomplete 
and inadequate knowledge of federally-controlled resources is not of 
course restricted to offshore resource and regularly contributes to 
poor management decisions by the Federal land agencies on a wide 
variety of issues.
    As for the time it will take to map OCS potential oil and gas 
reserves, I suggest that now is a good time to begin. The Department of 
the Interior under Secretary Zinke's leadership should be enthusiastic 
about it and eager to get started. A complete map may take several 
years, but the most promising areas for major oil and gas reserves can 
be mapped first. As for the cost, I suggest that the Congress could 
stop appropriating funds for land acquisition under the Land and Water 
Conservation Fund and use the money for this and other projects that 
contribute to improving management of the land and subsurface resources 
that the Federal Government already owns. I hope that an amendment to 
the Interior-EPA appropriations bill to provide initial funding for the 
mapping program will be offered when the bill comes to the Floor.
    The second section of the offshore title contains one provision 
that CEI has supported for a long time--sharing Federal revenues from 
offshore oil and gas production with the coastal states. This issue was 
last debated in Congress in 2006 when then-Natural Resources Committee 
Chairman Richard Pombo failed to enact general offshore royalty-sharing 
legislation and had to settle for enacting a provision that shares 37.5 
percent of Federal royalties on new production with Louisiana, Texas, 
Mississippi, and Alabama--the four Gulf states off whose coasts oil and 
gas was being produced in the Federal OCS at the time.
    CEI strongly supports sharing Federal offshore royalties with the 
coastal states where production occurs. Sharing royalties with coastal 
states means that they will be treated in much the same way as states 
with oil and gas production on Federal lands within the state. This 
seems only fair. Federal lands states receive a share of Federal 
royalties under the Mineral Leasing Act of 1920 as amended. For most 
states, the amount is half of gross revenues from oil and gas leasing. 
Gross revenues come from the auction price of the lease (the bonus 
bid), a nominal annual rental fee, and the Federal production royalty, 
which is 12.5 percent.
    Sharing Federal royalties provides a powerful incentive over the 
long term for states to support offshore oil and gas production off 
their coasts. It turns out that most states are as profligate in their 
spending as the Federal Government, but unlike the Federal Government 
most states must balance their budgets. This means that they are 
constantly seeking new sources of revenue. Receiving a share of Federal 
royalties looks very attractive compared to raising taxes. Raising 
taxes depresses economic activity, whereas offshore oil and gas 
production increases economic activity (and thereby also increases 
indirect tax revenues) and at the same time would provide direct 
royalty payments to the state.
    As well as providing a powerful incentive to the states, the 
discussion draft also includes provisions designed to give coastal 
states veto authority over offshore oil and gas production off their 
coasts. Under current law, coastal states cannot stop offshore 
drilling. At the same time, most coastal state governments currently 
oppose offshore drilling. These states are left with trying to exert 
political pressure, as in the case of Florida Governor Rick Scott, or 
making empty threats, as in the case of California Governor Jerry 
Brown. The discussion draft would give these states the legal right to 
prevent drilling off their coasts for a period of their choosing by 
paying a lost production fee to the Federal Treasury. The size of the 
payment would be calculated according to several factors.
    I don't want to comment on the details of this section, which is 
lucky because the details are messy and most of them appear still to be 
in the process of being worked out. However, in concept, I think these 
provisions address in a highly creative way a real conflict in our 
federalist system by balancing Federal rights and state interests. On 
the one hand, it is not right for any state to be able to stop resource 
production in the Federal OCS. These resources are after all owned by 
all Americans, and therefore all Americans should be able to benefit 
from their use through increased economic activity and additional tax 
revenues. On the other hand, some states have strong reasons to oppose 
drilling off their own coasts. These provisions respect these states by 
granting them the privilege of prohibiting production by paying for it.
    Now, I would like to comment on the onshore title in the discussion 
draft. The onshore title proposes to work around Federal mismanagement 
of the oil and gas leasing program on Federal lands by allowing states 
to take over management in areas of their choice, which the bill calls 
``enhanced management regions.'' My general view is that almost any 
aspect of Federal land management would be done better by any of the 
Federal lands states; and therefore I am in full support of this 
particular delegation of management. Oil and gas production on Federal 
lands stagnated during the previous administration, largely as a result 
of deliberate administration policies. Despite dramatically different 
policies from the Trump administration, obstacles to increasing Federal 
oil and gas production remain. As far as I am aware, the single biggest 
obstacle is processing and approving Applications for Permit to Drill 
(APDs) by local Bureau of Land Management offices. APDs must be 
approved before exploration wells can be drilled on lease tracts that 
have been acquired through BLM's competitive bidding process.
    All the evidence points to the fact that states process drilling 
permits on private and state lands much more quickly and efficiently 
than the BLM processes drilling permits on Federal lands. Thus I feel 
confident that states that want to administer tracts of Federal land 
that they choose for leasing, permitting, and production of oil and gas 
will do a better job than the BLM. The incentive and penalty structure 
in the bill will help ensure that production will increase under state 
management.
    During the Obama years, the shale oil and gas revolution boosted 
U.S. production dramatically from a low of 4 million barrels of oil a 
day in 2008 (after peaking at 10 million barrels in 1970) to over 10 
million barrels a day in 2017 today. This increase resulted from 
technological innovations made by creative people working in a free 
market. It occurred independently of government policies and to a large 
extent despite government policies. Together with vast coal reserves, 
the United States is well on the way to becoming the world's energy 
superpower. The economic benefits to the American people have been 
immense and look set to continue for decades to come. However, as a 
result of the previous administration's policies, oil and gas 
production on Federal lands and the OCS has lagged. It's time to catch 
up.
    Increasing Federal energy production is an important part of 
President Trump's energy agenda, which is in turn a key part of his 
agenda to get the economy moving again. Much has already been done by 
the Department of the Interior to get Federal production back on an 
upward track. This Committee has already done good work that if enacted 
into law would make significant contributions to that effort. The 
Enhancing State Management of Federal Lands and Waters Act promises to 
make another major contribution to removing obstacles to vastly 
increasing oil and gas production on the Federal estate. I look forward 
to working with the Committee to advance this important legislation.

                                 ______
                                 

    Mr. Gosar. Thank you, Mr. Ebell.
    I thank the panel for their testimony, reminding the 
members of the Committee that Committee Rule 3(d) imposes a 5-
minute limit on the questions. I will now recognize myself.
    Mr. Loris, in your testimony, you mentioned, ``that oil and 
gas production is booming in some regions of the United States 
while the rate of production in others has slowed or even 
decreased,'' and that this is often a result of one thing, 
``ownership.''
    Can you tell us some of the factors a company might 
consider when deciding whether to produce on Federal, state, or 
private lands?
    Mr. Loris. Yes, sure. There are a whole number of factors, 
honestly. You have the price of oil, the geographic region, but 
a big part of it boils down to who owns the mineral rights, and 
therefore, if you look at the trajectory on the timeline for 
applications for permits to drill on Federal lands, it has only 
increased. It is above 220 days on average now. Where, again, 
as I mentioned in my written and oral testimony, it is days or 
weeks for state and privately-owned lands.
    That is a huge incentive to go toward those lands and away 
from Federal lands. There have even been cases where energy 
companies have told me they have gone away from private- and 
state-owned lands that are adjacent or interspersed with 
Federal lands because they don't want to deal with the Federal 
Government's cumbersome process.
    Mr. Gosar. Mr. Anderson, it seems the Federal Government 
has imposed a one-size-fits-all approach to regulating oil and 
gas industry and other land-use practices as well.
    Can you explain how such an approach ignores the unique 
characteristics of each state and impedes the state's ability 
to accommodate localized conditions?
    Mr. Anderson. Absolutely. You know no state is like one 
another. Culturally, I think the state of Massachusetts is very 
different from my state of Utah.
    Furthermore, the geography in each state is very unique. 
And even within a state like mine in Utah, our geography is 
very diverse. We have grasslands, red rock and deserts, and 
mountains. So, there is this huge geographic diversity that is 
there and is difficult to manage if you have one-size-fits-all.
    A great example of this one-size-fits-all approach for 
Federal management is recreation. Federal land managers, 
because they are so rigid, often have a hard time being able to 
prioritize one use over another. Not all recreation activities 
are conducive to one another. For example, horses are spooked 
by dirt bikes on trails, and they are unable to prioritize for 
us. That is just one example of many of how Federal rigid land 
management just isn't allowing locals to really meet their 
needs.
    Mr. Gosar. Mr. Anderson, you bring up a good point.
    Would you consider that the state jurisdiction and 
oversight is inferior to the Federal Government's?
    Mr. Anderson. Absolutely. When you are able to bring in 
local history, culture, and a variety of other factors and 
circumstances, you are able to meet the needs of the people who 
live there. And that does not mean that we have to have 
environmental or recreational degradation as a result.
    Mr. Gosar. Mr. Loris and Mr. Ebell, coastal states cite 
localized industry such as tourism as one of the main reasons 
for opposing mineral development on the OCS.
    How could we balance these concerns while ensuring fair 
value to the return of the U.S. taxpayers? Let's go with Mr. 
Ebell first.
    Mr. Ebell. Thank you, Chairman Gosar.
    I think one of the reasons why royalty sharing is a good 
idea is because it is recognized that offshore oil and gas 
presents costs. And I think the environmental permitting 
process for all kinds of resource projects tries to take that 
into account.
    The regulatory regime for offshore oil and gas production 
tries to minimize risks, but they do occur. I think Louisiana 
is a good example of the fishing industry working and 
succeeding at the same time with a much larger, economically 
speaking, in terms of the value created.
    The offshore oil and gas industry for many, many decades, 
going back to the 1950s, has produced tens of billions of 
dollars of oil, and the fishing industry has still flourished.
    I think you can see that the two can co-exist but that 
there is a balancing there, and you have to take both into 
account. I think your provision to allow states that are really 
convinced that there is no way to have both, that there is no 
way to have other amenities or tourism or fishing and have oil 
production, that they can actually stop it.
    Currently, they can't, right? They can complain. They can 
jump up and down, hold their breath, try to exert political 
pressure, but they can't stop it.
    Your bill would allow states that really think that there 
is no way to balance the two and to have both at the same time 
could buy their way out. I think that is a very important 
provision.
    Mr. Gosar. My time is expired.
    The gentleman from California is recognized for his 5 
minutes.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    Mr. Loris, on page 7 of your written testimony, and you 
have also mentioned it in your oral testimony, you say that 
``oil and gas output on federally owned lands has been mostly 
stagnant or declining.''
    In fact, production from onshore Federal lands went up 78 
percent under President Obama, and offshore oil hit an all-time 
high in January of 2017 and continues to climb. In New Mexico, 
production went up faster on Federal lands than on private 
lands. Are you not aware of this data? Did you not check this 
data before making that statement?
    Mr. Loris. I would like to see that data, but if you look 
at where the shale revolution is on state and privately-owned 
lands----
    Mr. Lowenthal. Federal production went up 78 percent under 
the Obama administration on Federal lands. Are you not aware of 
that, is what I am asking?
    Mr. Loris. I know that energy production on Federal lands 
has increased, but it is still is dwarfed by the amount of 
production that is happening on state and privately-owned 
lands.
    Mr. Lowenthal. So, you consider that stagnant?
    Mr. Loris. I would need to see the relative numbers 
compared to what they were in the past, but given the decisions 
by the Administration to impose a moratorium and de facto 
moratorium, I do think there are opportunities where----
    Mr. Lowenthal. You are talking about previous 
administrations, all the way back through the Bush 
administration.
    Mr. Loris. Sure, yes, absolutely.
    Mr. Lowenthal. Thank you.
    Mayor Cahoon, as you mentioned, in your town of Nags Head, 
they oppose the inclusion of North Carolina in BOEM's draft 
proposed program and, in February, adopted a resolution 
opposing seismic testing and offshore drilling.
    You mentioned this in your testimony, but I would like you 
to tell us some more--in your estimation, does the value of 
tourism, recreation, and fishing industries along North 
Carolina's coast outweigh any of the potential economic 
benefits from offshore drilling? And how do you feel about the 
part of the bill where your state would be extorted if you had 
to not comply or you chose not to?
    Mr. Cahoon. Thank you very much for your question.
    In our county, which is a relatively small county in North 
Carolina, our population is a little less than 40,000 people. 
Almost a third of those people are employed in the tourism 
industry, and that small population generates $1.1 billion in 
domestic tourism spending, which is Number four in North 
Carolina.
    In our community, you are either engaged in the tourism 
industry, the fishing industry, or people like me, architects, 
doctors, lawyers, everybody who lives there lives there as a 
by-product of the tourism industry.
    For us, offshore drilling is a bit of a sword of Damocles. 
The risk of damage may be small, but when there is a spill, we 
have no fallback. We are a little different on the coast of 
North Carolina from many other areas of the United States. If 
you look at a map, we are a thin strip of barrier islands. 
Behind us are the sounds and then behind that, are rural 
sparsely populated counties with no other industries to fall 
back on.
    If there is a spill, we are dead. We have no livelihood, 
and we basically lose everything that we have. We have opposed 
testing and oil drilling going all the way back to the 1980s, 
the town of Nags Head has actually passed eight resolutions in 
opposition to offshore testing and drilling.
    Mr. Lowenthal. What about the part of the bill that says if 
North Carolina chooses not to go along with drilling, that you 
have to pay a great sum of money back to the Federal 
Government?
    Mr. Cahoon. Yes, sir. Well, that certainly seems like an 
inappropriate mechanism to me. And it fundamentally avoids the 
question of just making the decision about whether offshore 
drilling is the right thing to do or not. If we are going to 
have an energy policy and we are going to decide that we need 
the oil, why are we letting states then take some of that oil 
back off the table in exchange for a payment. But more 
fundamentally as a mayor, I worry about what our state would do 
to find those resources.
    We would certainly have a charged political discussion in 
the state of North Carolina to find those funds. Those funds 
are going to come from somewhere. They may be taken from towns 
or additional taxes imposed.
    Mr. Lowenthal. Thank you. I have run out of time, and I 
yield back, but thank you for your testimony.
    Mr. Gosar. I thank the gentleman from California.
    The gentleman from Colorado is recognized, Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank you for having 
this hearing.
    I would like to make a general comment and then ask Mr. 
Anderson a question or two.
    While oil and gas production has increased in recent years 
overall, as Mr. Lowenthal mentioned, this growth has occurred 
largely on state and private lands. So, uncertainty associated 
with the issuance of required permits presents additional 
challenges to producers seeking to develop on Federal land. And 
we know that mineral revenues are a crucial source of income 
for the states, so when we have permitting backlogs and delayed 
leasing decisions, these are lost opportunities for economic 
development and job creation. And we know that 50 percent of 
mineral revenues are returned by the Federal Government to the 
states.
    So, Mr. Anderson, when the Federal Government fails to 
effectively manage oil and gas permitting on Federal lands in 
the state of Utah, where you are familiar, resulting in 
backlogs and unpredictable leasing timelines, how does that 
impact state and local budgets?
    Mr. Anderson. Our public lands are a puzzle. There are a 
lot of working pieces, and you have to have all these pieces 
together to paint the whole picture.
    When we are unable to extract resources from our public 
lands, it has both a short-term and a long-term impact.
    I want to give you a fantastic example of eastern Utah in 
the Uintah Basin. I go out there and visit it quite frequently. 
Uintah Basin is far removed from airports and major highways, 
and it is quite isolated. And the recreational opportunities 
just aren't there like they are in Zion National Park or 
Canyonlands or other places in our state. So, the area is very 
reliant on resource extraction. A lot of the money, when there 
is a boon that comes to those from these mineral royalties, 
helps sustain them when we see the roller coaster that 
inevitably happens with this form of extraction.
    Now, am I suggesting that oil and gas extraction should be 
the only economic use of our public lands? No, and quite 
frankly, it is not ideal for the Uintah Basin. That said, that 
is the hand that they have been dealt. They don't have the 
opportunity to promote recreation to make money, so they need 
those royalties. And they need it to fund their schools and 
their infrastructure and many other things that come back to 
them.
    Mr. Lamborn. Let's talk about state management of lands. 
Should we be able to pass this bill and give the states more of 
a say in their destiny, what is the record of Utah in allowing 
for public access to lands? Is it strictly for energy 
development, or is every other kind of use allowed as well?
    Mr. Anderson. Absolutely not. The state of Utah engages in 
a host of land management practices.
    A great example is, in 2015, the state of Utah passed a 
piece of legislation asking every county to come up with a 
resource management plan for both the county, state, and 
Federal lands within their borders. It gave the opportunity for 
locals to come in and give their opinions. These were passed by 
the counties and the county commissioners. Then it was passed 
along to the state level. Locals were, again, given the 
opportunity to comment, and now we have our Utah State Resource 
Management Plan for the entire state.
    And it has a host of different things in there. Recreation, 
wilderness areas, water, air, you name it. So, absolutely.
    Mr. Lamborn. So, is it reasonable to assume that, given the 
fact that states managed their state lands according to the 
principles of multiple use, that the states would do the same 
on Federal lands, not just Utah but other states, should we be 
able to pass this legislation, while giving more certainty to 
energy producers?
    Mr. Anderson. Yes. As I mentioned in my testimony, nobody 
loves these lands more than the people who call them home, and 
I believe they will protect them. They have to live with the 
consequences that are made on them. Multiple-use management is 
an integral part of who we are as Westerners, and I believe 
that it would continue to be if the states were able to manage 
these places.
    Mr. Lamborn. I thank you for your great responses.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Gosar. The gentlewoman from Massachusetts, Ms. Tsongas, 
is recognized for 5 minutes.
    Ms. Tsongas. Thank you, Mr. Chairman.
    Welcome to our witnesses. Generation after generation of 
Americans have endorsed the idea that our public lands and 
waters should be managed for the benefit of all Americans, 
despite the fact that many of those public lands are 
necessarily resident in particular states so managed for all 
Americans to support a wide range of activities.
    These multiple uses include recreation activities, such as 
hunting, hiking, and camping, along with responsible resource 
extraction and economic development, fishing, grazing, timber 
harvesting, and mining.
    Unlike state lands, which are often managed to maximize 
profits, public lands, the lands that belong to all Americans, 
do not exist for the sole purpose of generating revenue.
    I want to highlight the words of Pope Francis who recently 
met with oil industry executives at the Vatican. He said, ``The 
need for greater and more readily available supplies of energy 
to operate machinery cannot be met at the cost of polluting the 
air we breathe. The need to expand spaces for human activities 
cannot be met in ways that would seriously endanger our own 
existence or that of other living species on Earth.''
    He is also speaking to the environmental values of how we 
protect our public lands. We must work--and these are not his 
words--we must work to find a balance between competing 
interests on our Federal lands and waters, which this 
legislation clearly fails to do by creating a presumption in 
favor of oil and gas development over all other economic 
interests and national values.
    Mayor Cahoon, my questions are for you.
    The economics of your community are clearly dependent upon 
tourism and fishing and are put at risk by the potential risks 
of offshore drilling. Should there be a spill, which one of our 
witnesses has today referenced that there are risks associated 
with offshore drilling. So, I am just curious, from your point 
of view--and it is in part reiterating what you have already 
said--what are the risks that offshore drilling would pose to 
your economy that is so dependent on tourism and fishing?
    Mr. Cahoon. There are really two risks for our community.
    The first arises with testing. We have a very significant 
commercial and recreational fishing industry in our area. Many 
of our tourists come for recreational fishing to go offshore to 
the Gulf Stream. Any activity that changes the behavior of the 
commercial fish or of the sport fish would put those industries 
at some risk and especially our neighboring communities. The 
Wanchese area that is a historic fishing community would suffer 
significantly.
    The second risk is from a spill. The damage that that would 
do to the fishing areas, the shell fishing areas, would be very 
significant.
    For us, though, we think of a spill on the beach and what 
that would mean. I have always said that if you can run a 
business on the Outer Banks, you are one of the best business 
people in the world, because we have tourists for about 4 or 5 
months out of the year, and our businesses make enough to get 
by. We make a living that way. If there is a spill and we shut 
down in one of those summers, people really will lose 
everything. And that is really why this cuts across all the 
lines for us and is a very simple decision that we just cannot 
withstand that risk.
    Ms. Tsongas. So, you clearly don't need offshore drilling 
to protect the long-term economic stability of your community. 
Yours is rooted in very different industries that are dependent 
on a very different scenario?
    Mr. Cahoon. We do not. Our county is a $1.1 billion tourist 
industry right now today. And we don't need the oil, and we 
would put that substantial business at risk.
    Ms. Tsongas. I thank you for your testimony.
    The challenge we have here is to face, to balance competing 
interests, serious economic interests that benefit different 
communities in different ways, and this legislation clearly 
creates a presumption in favor of oil and gas drilling at the 
expense of other economic interests.
    I yield back.
    Mr. Gosar. I thank the gentlewoman.
    The Chairman of the Full Committee, Mr. Bishop from Utah, 
is recognized for 5 minutes.
    Mr. Bishop. Thank you.
    I appreciate the witnesses for being here.
    Mr. Graves, I apologize. I feel sorry for you. You come 
from a state that does offshore drilling, I suppose, so I am 
sorry that the tourism trade in Louisiana has dried up and no 
one wants to go down there because of that.
    Mr. Graves. Sir, tourism is smoking in New Orleans. It is 
amazing.
    Mr. Bishop. For the first witness, you said that if you 
look at Louisiana, Texas, Mississippi, Alabama, they have been 
able to have economic activities in oil and gas production as 
well as tourism, as well as recreation, and they seem to be 
functioning very well at that, right?
    Mr. Loris. Yes, that is the right. It is not a zero-sum 
game.
    Mr. Bishop. So, the idea that this is the only thing we are 
talking about when we do offshore production and it will drive 
out everything else is one of those false narratives and false 
assumptions?
    Mr. Loris. Correct.
    Mr. Bishop. However, I want to thank you for having this 
hearing, especially because of some of the letters I have 
received. This is wonderful.
    There were five Atlantic Coast governors that sent me a 
letter that said: We reject this legislation that disregards 
the wishes of the citizens of our state. It could not be more 
clear that the citizens of our state oppose the U.S. Department 
of the Interior's proposed plan--even though I would notice 
that legally he has to come up with a 5-year plan, that is one 
of his responsibilities, regardless of whether you do it or 
not--in addition, finally, many of our state legislatures and 
local governments have enacted statutes and ordinances 
respectively to prevent or oppose offshore drilling.
    I am thankful for these letters. This is a wonderful 
letter. It is a great letter. I appreciate receiving it.
    This is a letter that came from the governor of my state 
that said: ``As evidenced by the opposition from virtually 
every elected county, state, and Federal official, the state of 
Utah strongly opposes any unilateral monument designation 
within our state.''
    So, Ms. Tsongas, Mr. Lowenthal, you have spoken so far. Why 
are these letters good and you are supportive of them? And why 
is this letter rejected? Why is this letter something you 
oppose? What is the difference between these two letters? Why 
should the wishes of the citizens of these states on public 
waters be respected and the wishes of this state on public 
lands not be respected?
    I yield to either one of you that want to do that. I have 
five people over there. Any of you want to respond on why these 
letters are good and this letter is not?
    OK. Mr. Ebell, let me go to you, if I could, for just a 
second.
    You talked about seismic testing. Restate what you said. 
But why is it important that we make these decisions with some 
knowledge instead of in a simple vacuum?
    Mr. Ebell. Mr. Chairman, for a long time, I have supported 
multiple surveys of the federalist state, both offshore and 
onshore. Our Federal land managers, bless their hearts, they do 
lots of good work and, in my view, lots of bad work, but one of 
the things that hampers them is a lack of information.
    How can the United States develop a strategy for its future 
energy production if it doesn't know how much energy it has?
    Mr. Bishop. Let me shut you off here for just 1 second. I 
am sorry. There are a couple other things I need to say quickly 
before my time goes away.
    Mr. Ebell. Yes, certainly.
    Mr. Bishop. And you are spot on. One of the things this 
bill does do is try to make sure that information goes out 
there so states can make a wise decision.
    Mr. Ebell. Yes.
    Mr. Bishop. The other thing it tries to do is treat onshore 
and offshore states the same way on their public lands and 
public waters and tries to put everything on an even basis that 
is not talked about here.
    I do need to say one thing about Mr. Lowenthal's question 
to you originally. Between 2010 and 2015, the percentage of the 
Nation's crude oil produced on Federal lands decreased from 35 
to 21 percent, according to BLM. The number of drilling permits 
issued on controlled onshore land dropped 47 percent during the 
last administration. Further, Federal data shows crude oil 
production remained flat between 2010 and 2015 on federally-
controlled land while natural gas production actually declined 
by 27 percent.
    However, on lands that were controlled by states and 
private individuals, it increased 115 percent for crude, 66 
percent for natural gas. I would like to see your data. And I 
want to see where those numbers come from because it does not 
equate to anything BLM has produced or anything the Department 
of the Interior has produced.
    Mr. Lowenthal. I have the data right here.
    Mr. Bishop. Good.
    Mr. Lowenthal. I can put it into the record.
    Mr. Bishop. No, let me just see it, so we can see where you 
are skewing the approach to it. That is important because there 
has been a decline, and we have been missing out, which means--
I am 5 seconds over. So, in the second round I may say what it 
means. The rest of you will have to spend your time in bated 
anticipation for what it means.
    I just want to treat all states equally and fairly, 
including Louisiana. And that is not happening right now.
    I have not yielded back. You took it away.
    Mr. Gosar. I thank the gentleman.
    The gentlewoman from New York, Ms. Nydia Velazquez, is 
recognized for 5 minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    I would like to request unanimous consent to submit a 
letter for the record written by my governor of New York in 
strong opposition of the bill we are deliberating here today. I 
am not sure if the Chairman already got that letter, but I just 
want to make sure that the record has the letter from the 
governor of New York.
    Mr. Gosar. Without objection, so ordered.
    Ms. Velazquez. Thank you.
    This bill essentially incentivizes offshore drilling and 
imposes fees on states that are working to employ more 
sustainable energy resources.
    For those of us in New York, this bill threatens to 
jeopardize long-term investments in clean energy for our 
children and families. And it puts at risk entire industries 
that rely on our coast from tourism to fishing.
    This is irresponsible in the short term, putting our 
healthy coastline at risk. But this fossil fuel addiction is 
also reckless for the long term, contributing to climate change 
and placing our communities at risk of powerful extreme weather 
events, while threatening the planet for our children.
    We have seen that energy exploration like this carries 
inherent risks. Have my colleagues already forgotten the BP oil 
spill in the Gulf 8 years ago?
    As the Ranking Member of the Small Business Committee, I 
remember hearing vividly how entire fishing and tourism 
industries suffered because of one company's mistakes on a 
single oil platform. Some estimates suggest the Gulf economy 
lost $22 billion in the following 5 years.
    We do not want to let that happen in New York. For those of 
us from New York City, we sometimes say that water is our sixth 
borough. It surrounds our cities, and it defines the character 
of our city.
    In other parts of the state, the ocean is the anchor of 
tourism and fishing industries.
    New York's ocean economy generates an estimated $11 billion 
in wages, contributes $23 billion in gross domestic product, 
and supports 320,000 jobs.
    All of this could end or be massively undercut if there 
were a major oil spill.
    So, as a state and a city, we have chosen a different path. 
As New Yorkers, we have worked hard to find other energy 
sources. Our state is leading a $1.4 billion investment 
dedicated to onshore renewable energy projects.
    New York released a plan to develop 2,400 megawatts of 
offshore wind generation by 2030. We ought to be able to make 
that choice, and I believe that this is at the center of the 
debate of this legislation.
    We, every state, should be able to make that choice. That 
should be our option. We should be able to say we want a 
sustainable energy path in our state and in our city that does 
not risk damaging our wonderful coast and ocean.
    But this bill takes that option away from us. The message 
is either start down the road of opening your coastlines to 
drilling or start paying fines.
    Mr. Loris, you mention that this legislation empowers 
states. What a wonderful way to empower a state, by telling 
them: if you choose this path, then you will have to pay fines 
or fees.
    The irony, of course, is that in every other area, 
Republicans love to extol states' rights and how the Federal 
Government should not impose its will or overstep.
    Apparently, that principle does not extend to protecting 
Big Oil.
    My question for the panel is this, quite simply--shouldn't 
New Yorkers be allowed to decide whether they want to imperil 
their coastline with oil exploration or if they want to develop 
sustainable renewable energy resources? Should Washington force 
these decisions on them from afar? And if states like New York 
do elect a more sustainable future, why should they have to pay 
penalties for doing so? Isn't that a fair question?
    I yield back, Mr. Chairman.
    Mr. Gosar. I thank the gentlewoman.
    The gentleman from Virginia, Mr. Wittman, is recognized for 
his 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I go to Mr. Ebell.
    You spoke in your testimony about the importance of data 
concerning offshore resources, specifically the geology of 
offshore having a comprehensive database to understand both the 
geological and geophysical conditions there. There hasn't been 
a study done in, I know, well over 30 years.
    Let me ask this, is it important, first of all, for us to 
do a study, a current study? Is there a reason why we shouldn't 
do a study? Is that data important for decision making?
    Mr. Ebell. Thank you, Representative Wittman.
    I am not an expert on this, but I think that the insistence 
of environmental pressure groups over many decades to keep 
information from informing public debate really needs to be 
recognized here, and this bill says, finally, we are going to 
spend the money and take the years that it takes to do an 
adequate geological mapping of our offshore resources.
    I was involved for several decades in the ANWR debate, 
which was resolved successfully without anybody really doing 
anything last year. It just sort of happened. But one of the 
things that the environmental groups insisted upon for years is 
that we couldn't know how much oil might be contained in the 
coastal plain of ANWR. They would not allow exploration 
drilling so that public policy decisions could be based upon 
information. It could instead be based on wild emotional claims 
about unique resources that nobody had ever visited, so they 
could make up falsehoods.
    The point about not allowing information to inform public 
policy decisions is because, of course, if the American public 
knew how much oil there might be under the coastal plain, they 
would be able to decide whether they wanted to drill there or 
not.
    The same is true of the offshore resources. We may find 
out, for example, that there isn't very much oil in ANWR. We 
may find out that there is a huge amount of oil in Virginia, or 
there isn't much at all.
    Once we know, that will inform people in making the debate. 
If there is going to be $5 billion of activity or $50 billion 
of activity, that makes a big difference in the decision that 
the people of Virginia make when they are calculating how much 
their royalty might be, their share of the royalty.
    So, I think it is absolutely critical that this Committee 
insist that the money be spent to do an adequate mapping of our 
offshore resources, and then I would say, as a rural Westerner, 
we need an adequate mapping of what the Federal lands are and 
what the withdrawals have been.
    Mr. Wittman. Mr. Ebell, when it comes to doing that 
mapping, gathering that data, I know the Bureau of Ocean Energy 
Management has looked at what the impacts would be of seismic 
studies, using sound to penetrate the sediments below to see 
what is there.
    I know you have done an assessment to see what is the 
impact on marine mammals, what is the impact on fisheries.
    Can you give us the results of that study? Because I know 
there has been a lot of discussion too about there being 
impacts on those marine mammals and those fishery resources.
    Mr. Ebell. Yes, again, I am not an expert on this. Nick 
Loris may have looked into this much more deeply than I have.
    I would just say I think a lot of wild claims have been 
made about seismic testing, and the scientific research I am 
familiar with does not sustain those claims. But I haven't 
looked at the entire scientific literature, and I don't have 
the scientific credentials to weigh it adequately, so I will 
try to put off that question.
    Mr. Wittman. Mr. Loris, do you have a comment on that?
    Mr. Loris. I haven't seen that specific report or the work 
from BOEM, so I will take a look and offer comments for the 
record.
    Mr. Wittman. OK. Very good.
    Mr. Chairman, I would like to offer the Committee that the 
results from the BOEM study ought to be part of the information 
offered by this Committee.
    Again, I want to make sure that we are making decisions 
based on all the information across the board. I understand 
different groups advocating in different ways, but I think it 
is critical, as you point out, Mr. Ebell, that we have the full 
scope of information. We do want to make informed decisions, 
and I think having that information is key for that.
    So, with that, Mr. Chairman, I yield back.
    Mr. Gosar. I thank the gentleman.
    The gentleman from Florida, Mr. Soto, is recognized for his 
5 minutes.
    Mr. Soto. Thank you, Mr. Chairman.
    This bill seems to be a paradox of federalism, stacking the 
deck in favor of oil drillers because states that want to drill 
can take over and drill, but states that want to protect their 
coasts and Federal lands face a hefty ransom.
    Just as an aside, no one is going to mistake a Florida 
beach coast or intercoastal region for any other state, other 
than perhaps Hawaii. That is why every member of the Florida 
delegation opposes offshore oil drilling because we understand 
that it comes at a price, and most Americans understand it 
comes at a price.
    Mayor Cahoon, how would you all feel in Nags Head if the 
Federal Government told you, ``We are going to throw up a full 
oil derricks, or you have to pay the price''? How would your 
constituents feel about that?
    Mr. Cahoon. I think my constituents would probably scream 
bloody murder. We face, as a local government, issues of 
resources, and it is a constant struggle, I realize, in what 
the state is able to give us and take away, and I understand 
that to some degree, but this is a massive extraction from our 
state of resources; by one estimate, I believe, about $560 
million from North Carolina. That would take resources away 
from our towns and schools and other things that have needs.
    Mr. Soto. Thank you, Mayor.
    Mr. Loris, why should we have this double standard?
    Mr. Loris. I think the alternative is the Department of the 
Interior forces those decisions on you without the choice. I 
don't see it necessarily as a double standard but actively 
engaging states to make choices, hopefully with better informed 
data about the resources that lie off the coasts and in the 
Federal lands.
    Mr. Soto. Thank you, Mr. Loris.
    Mr. Anderson, why the double standard? Why can states 
demand to drill and other states have to pay ransom in order to 
protect their lands? Why would we want that inconsistency?
    Mr. Anderson. Well, these are America's public lands, and 
as Americans, we all benefit from the extraction of these 
mineral resources. If those go unused in the coffers, if we 
don't have that money going into our Federal coffers, all 
Americans are going to struggle as a result.
    Mr. Soto. So, you are comfortable with the inconsistency in 
sovereignty?
    Mr. Anderson. I think there is another side to the coin 
too. When we choose not to extract, like in the state of Utah 
that we have seen, locals are struggling significantly, so 
there are consequences on both sides.
    Mr. Soto. I appreciate you mentioned that because Utah has 
traditionally been an energy state that has decided to do that, 
and that is something that we should all support.
    But my state doesn't want any of this.
    Mr. Ebell, how do we justify requiring states to pay if we 
don't want to drill yet giving states the overwhelming power to 
drill? How do you reconcile that inconsistency in sovereignty?
    Mr. Ebell. I think there is an asymmetry between Federal 
land states and offshore Federal waters.
    The state of Utah, for example, or Wyoming or New Mexico, 
has a lot of Federal land against its will. That is, it was 
never transferred at the time of statehood as it should have 
been under the Constitution and the statehood acts. Those 
states are stuck with the Federal lands.
    The Federal offshore waters are not in your state. They are 
owned by all Americans.
    Mr. Soto. So, you would be OK with the one part, but----
    Mr. Ebell. Florida does not have jurisdiction over Federal 
waters. You have jurisdiction over state waters. You can drill 
or not drill----
    Mr. Soto. Mr. Ebell, thank you so much. We are here in the 
Federal Government today talking about that, and we have 
authority over that. That is why we are here, not in State 
Legislature.
    So, you are OK with the first part, but you haven't 
justified the second part of requiring states to be able to 
have power over the Federal lands for oil drilling, but if they 
want to preserve them, they are left helpless.
    The last thing I wanted to talk about--today, they just 
came out with a study that Antarctica is melting at three times 
the amount we thought it would be because of global warming.
    Is it inevitable that we are going to face oil drilling for 
the next couple decades?
    Mr. Ebell, you can answer that one.
    Mr. Ebell. The world's energy demands are enormous, and 
they are growing. Over 80 percent of the world's energy and 
over 80 percent of the United States' energy comes from coal, 
oil, and natural gas----
    Mr. Soto. So, is it inevitable?
    Mr. Ebell. Yes.
    Mr. Soto. OK. Thank you. I hope we are not telling our 
children and grandchildren that.
    I yield back.
    Mr. Gosar. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Thompson, is 
recognized for his 5 minutes.
    Mr. Thompson. Mr. Chairman, thank you for hosting this 
hearing. This is one that is near and dear to my heart, having 
Federal lands within my congressional district, a national 
forest that, quite frankly, was oil and gas filled long before 
it was a national forest known for providing resources.
    Part of this hearing has been sort of portrayed in 
different ways, with the whole climate scare thing and other 
different ways, but I look at this as leveling the playing 
field for rural America and urban America.
    Urban policy makers have been discriminating in a purely 
selfish manner, limiting the opportunity in rural America, 
limiting access to resources we have been blessed with, 
especially at a time like we are experiencing today, but we 
also have the technology to be great stewards of the land as we 
use what God has given us.
    I border New York. I feel sorry for the folks in upstate 
New York, quite frankly, where we have benefited because the 
state and the Federal Government have tried to work together to 
provide an economic base and to do the right thing morally so 
that American families can find that they have affordable 
electricity, affordable energy, especially the people that are 
struggling living paycheck to paycheck. They cannot afford 
escalating energy bills, especially when we are blessed with 
the energy resources that we have today and the technology to 
be able to produce and use in that way.
    In New York, despite the governor of New York having put 
billions of dollars into the Upstate Revitalization Initiative 
that was mentioned into economic development, but it ignores 
the vast amount of energy resources that we have in New York.
    Again, that is not my state, but I have kind of a picture 
window of it when I am up in the northern tier of my district.
    New York added 97,000 jobs over the past 12 years. All but 
9,100 of those were on Long Island and New York City. God bless 
Nags Head and New York City and places that do have tourist 
destinations that people from my district and Mr. Bishop's 
district and all around the country want to come and spend 
money. That is great economically for them, but what about the 
rest of America? What about America that has been left behind 
that, quite frankly, has the energy resources to have a robust 
economy?
    I probably used way too much time on that, but now for my 
questions.
    Mr. Ebell, thank you for providing your thoughts on the 
draft bill that we are discussing today.
    A large portion of my congressional district has the 
Allegheny National Forest. Timber receipts from this national 
forest provide more and more counties in my district with 
crucial funds needed to carry out day-to-day operations.
    Now, as we consider giving states more influence in the 
subsurface development of their Federal lands, I am talking the 
onshore thing at this portion of this bill, might counties 
benefit revenue-wise?
    Mr. Ebell. They will certainly benefit from energy 
production in terms of local economic activity and high-paying 
jobs, and you have seen that in your district with the shale 
oil and gas revolution.
    I would like to see the other Subcommittee work on getting 
back to timber harvesting instead of managing our huge reserves 
of timber through insect infestation, disease, and catastrophic 
fire.
    In my part of the world, there are no timber mills left. We 
now just burn it down. In fact, all the towns in Oregon, all 
those little rural towns, you say getting rural America going 
again, a lot of them have just dried up and blown away because 
the mill closed and that was all there was.
    So, I think that the revenue sharing of oil and gas goes to 
the state, but obviously, it will help the counties finance 
this as well.
    Mr. Thompson. I find in terms of energy, minerals, and 
resource production, timbering is an important part, and 
unfortunately, because of lawsuits, we have really lost that.
    And I am proud to say that the farm bill, which I hope we 
will be bringing up, I would love to have my friends across the 
aisle support us on that when it comes back to the Floor, 
because it has great provisions in there for forestry. And if 
you are concerned about climate change, then you ought to be 
supporting the largest carbon sinks in the world, and those are 
good, healthy forests. It is the natural way of taking carbon 
out of the air and manufacturing top soil, which we all know 
also has great benefits in terms of growing our food supply.
    Thank you, Chairman, and I yield back.
    Mr. Gosar. I thank the gentleman from Pennsylvania.
    The gentleman from Arizona, Mr. Grijalva, is recognized for 
his 5 minutes.
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    Mayor, North Carolina's coast is particularly vulnerable to 
sea level rise, coastal impacts of climate change, including 
increased intensity and frequency of hurricanes. These impacts 
threaten beach front real estate and private property, also the 
tourism and recreation industry, and North Carolina's 
agricultural sector as well.
    As a local coastal official, what about climate change 
concerns you most? And how is your community preparing for 
impacts?
    Mr. Cahoon. Thank you, sir.
    Climate change, or sea level rise specifically, does 
concern us very greatly. We are already seeing the impacts in 
our community of a rising water table and increased beach 
erosion. We, in fact, just in this budget in our town are 
dealing with the storm water issues that are being caused by an 
elevated water table that is part of the sea level rise 
equation. We operate on site-by-site septic systems, and those 
systems, as the water table rises, are polluting the 
groundwater, so we are having to deal with that issue.
    Several years ago, we spent over $30 million on a beach 
nourishment project, which was paid for locally. There is no 
Federal or state money in our beach nourishment projects. We 
are getting ready to spend over $30 million again to rebuild 
our beach, because when we lose the beach, we suffer the 
erosion and damage to our real estate, our infrastructure, our 
streets, power lines, and that kind of thing. It is a very 
significant issue for us.
    Mr. Grijalva. Thank you. I appreciate that.
    Mr. Ebell, according to a news report, the Trump 
administration is pursuing or discussing to pursue a plan to 
make electric grid operators and certain utilities purchase 
uneconomic power from struggling coal and nuclear plants to 
prevent them from retiring.
    The proposal, I think, goes against the free enterprise and 
limited government concept and would surely raise electricity 
rates and energy rates for consumers.
    Discussing the plans 2 days ago, FERC commissioners 
expressed extreme skepticism about a coal bailout, and 
according to their chairman, who said, ``There is no immediate 
calamity or threat to our ongoing ability to have our bulk 
power system operate and satisfy our energy needs.''
    Mr. Ebell, do you support propping up uneconomic coal and 
nuclear plants?
    Mr. Ebell. Representative Grijalva, I believe this question 
goes beyond the subject of the hearing. If the Chairman will 
indulge me, I will try to answer your question.
    Mr. Grijalva. I will indulge you for a little while. I have 
other questions as well.
    Mr. Ebell. Yes. The CEI hasn't taken a position on any 
proposals because we haven't seen them yet. In general, we 
oppose energy mandates and subsidies.
    The problem here is that the Federal Government props up 
uneconomic forms of energy through the wind production tax 
credit and the solar investment tax credit, and many states 
have mandated the use of uneconomic forms of solar and wind 
energy, so what we see in terms of the security of the grid and 
the reliability of the grid is now a question for debate.
    And I am not an expert in reliability, so I can't really 
judge whether these countervailing subsidies are a good idea or 
not.
    Mr. Grijalva. Mr. Loris, same question. Do you support the 
President's proposed plan to prop up uneconomic coal and 
nuclear plants?
    Mr. Loris. We do not. In fact, we have written about it in 
both Heritage papers and op-eds that we do not support these 
bailouts. I think it is one thing that can stifle innovation in 
the energy sector broadly if you allow uncompetitive sources to 
be propped up.
    That said, we support getting rid of all energy subsidies, 
the wind production tax credits, reducing regulations that can 
make new power plants and existing power plants more 
competitive, but we do not support the bailouts.
    Mr. Grijalva. Mr. Chairman, I yield back.
    Mr. Gosar. I thank the gentleman.
    I guess the point to this whole aspect is that you can't 
treat energy equally. We are talking about base load versus 
intermittent, and so that is a big denomination that has to 
have a decipher.
    For the record, the gentleman from Louisiana, Mr. Graves, 
is recognized.
    Mr. Graves. Thank you.
    I want to thank you all for being here today and for your 
testimony.
    Mayor, I have a question. I have had the opportunity to do 
a lot of jobs in my life, and one of them is I got to be a 
garbageman for a while, and it was lot of fun.
    Let me ask you, if you had 10 garbagemen that all worked 
for your city, and you brought the new trucks on that have the 
automation that lift the cans and everything, and as a result 
of that automation, let's say that 9 of your garbagemen were 
able to have a 70-percent increase in production and 
efficiency, but one wasn't able to do that, and you tried to 
work with that person and tried to make them do a better job 
and increase their efficiency, would you keep them on, do you 
think? Or do you think you might get rid of them at some point?
    Mr. Cahoon. Well, as mayor, I defer to my town manager to 
make those kinds of decisions, and I generally stay out of the 
detail.
    We would appreciate that increased efficiency. We would, 
within human resources, we would do everything we could to find 
another job for that person so that they could still be----
    Mr. Graves. But you would recognize that there was 
disparity there and perhaps it needs to be fixed. There is 
something out of whack. Right?
    Mr. Cahoon. Certainly. Yes.
    Mr. Graves. So, my good friend, Mr. Lowenthal, we have had 
this discussion before in this very Committee with your same 
factoids.
    When you look at energy production on Federal lands and you 
look at energy production on private lands and Indian lands, 
you have disparity. You set a curve, you set a baseline, based 
upon what is happening.
    The energy production on Federal lands and Indian lands 
have completely smoked those on Federal lands during the Obama 
administration.
    Mr. Lowenthal. It has gone up by 78 percent----
    Mr. Graves. No.
    Mr. Lowenthal. Let's talk about it. Let's admit that it has 
gone up.
    Mr. Graves. It is my time.
    Mr. Lowenthal. You asked me.
    Mr. Graves. So, you have a baseline of energy production, 
of what is happening on Federal lands versus what is happening 
on comparable lands run by the private government or run by 
Native American tribes, and that is where you see a complete 
difference in energy production on the private lands and on--
and I don't need to pull up any facts, I understand that.
    Mr. Lowenthal. On Federal lands----
    Mr. Graves. The energy production on private lands has 
completely smoked that on Federal lands. The Federal Government 
under the Obama administration did not do a good job using 
those resources. They did not.
    So, going back to other fun questions and comments, the 
state of Louisiana, we have a fishing industry, Mr. Mayor. As a 
matter of fact, we have the top commercial fishing industry in 
the continental United States.
    We also produce more offshore energy than anywhere else in 
the United States.
    In fact, let me do the math for you. You have six states 
that produce offshore energy. You have Alabama, Mississippi, 
Louisiana, Texas, California, and Alaska, right? When you take 
the Federal production of those six states--in fact, of 
Alabama, Mississippi, Texas, California, and Alaska, and you 
add it up, you multiply it times about four, and that is what 
we do in just Louisiana. Yet, we have the top commercial 
seafood production in the continental United States.
    And just to give you a comparison, in North Carolina, in 
the 5 years, the most recent years of data, you all produced 
295 million pounds valued at $435 million. We produced 5.2 
million pounds valued at $2 billion.
    The point is, things can co-exist. They can. You can have 
both energy production and you can have a very productive 
ecosystem, and we have been able to find that balance.
    And I think where the concern is, is that if we are in a 
situation where perhaps Virginia Beach came into Nags Head and 
said, ``You know what? We are not going to let you renourish 
your beach. We are not going to let you rebuild roads. We are 
not going to let you build a hotel,'' you would probably be 
pretty frustrated and say, ``You know what, Virginia Beach? Get 
back over to your town, to your state, to your territory, and 
don't tell me what to do.''
    So, I think that we do need to keep in mind that these are 
Federal resources. These are Federal resources, and this is the 
Federal Government, and I am not at all saying that there are 
not implications to states, that we need to ignore the states' 
thoughts and comments, but I am saying that these are Federal 
resources, and this is an opportunity to drive Federal revenue 
for Federal investments for the Federal Government.
    And to have a local government, to have a state come in, 
and to unilaterally determine--I think their comments need to 
be considered--but to unilaterally determine what happens with 
those resources is inappropriate.
    I yield back.
    Mr. Gosar. I thank the gentleman.
    The gentlewoman from California, Ms. Barragan, is 
recognized for 5 minutes.
    Ms. Barragan. Thank you, Mr. Chairman.
    Mr. Mayor, I want to first thank you for the comments that 
you made about what you are doing in your town on sea level 
rise and the cost that it has to local government.
    I, myself, was a mayor of a city along the California 
coastline and saw it firsthand happening and saw that we had to 
take action on it. And you are right: sometimes you get no 
assistance financially.
    And it leads me to the question. We don't talk about 
climate change in this Committee. We have never had a hearing 
about climate change and its impacts. It feels like we continue 
to have hearings in this Committee on opening up more lands to 
oil drilling and more money that can be gained from that 
instead of, what would be the impact to climate change? What 
would be the impact to health in the world?
    And one of my colleagues mentioned that we should be doing 
the moral thing, and I happen to believe that doing the moral 
thing is taking care of our planet and taking care of our lands 
and the health and the environment.
    And I just want to ask you, is climate change something 
that you talk about in your city? Is it something that, when 
you guys talk about civil rights, you make that connection?
    Mr. Cahoon. We do. In fact, the town of Nags Head is 
recognized as taking the lead in North Carolina on sustainable 
development and addressing the sea level rise issue.
    We have had a number of community forums and we have had 
community discussion about the issue, what the potential 
impacts will be. And we are currently redeveloping our unified 
development ordinance, and dealing with the issues of sea level 
rise and the rising water table are going to be part of the new 
policy that we implement.
    Ms. Barragan. And do you think if we start opening up our 
Federal lands to oil drilling across this country, that climate 
change is going to get worse or better?
    Mr. Cahoon. I can only imagine that if we continue to burn 
fossil fuels at the current or a greater rate, then, yes, that 
climate change and those consequences will increase.
    Ms. Barragan. Thank you.
    I think this bill is going to only further enable the 
Administration's desire to surrender our oceans and our 
coastlines and our public lands to the oil and gas industry, 
allowing for drilling no matter the environmental or economic 
cost.
    And not only has this Administration and the Republican 
Majority in Congress attempted to do this while simultaneously 
seeking to weaken safety regulations that govern offshore oil 
and gas drilling--this is especially troubling from where I 
represent. I am in Southern California. People in my state, 
certainly in my area, do not want to see any offshore oil 
drilling. We already feel the impacts of oil drilling and the 
health impacts in my community.
    As a matter of fact, in California, the coastal tourism is 
unparalleled. It is contributing about $17.6 billion to our 
economy annually. And the vast majority, about 69 percent of 
Californians, strongly oppose new oil and gas drilling off of 
the coast.
    It is something I did when I was on the local city council. 
I have introduced the Safe Coast Act, which codifies two of the 
common-sense safety regulations put in place after the 2010 
Deepwater Horizon disaster that happened.
    Mayor, even if North Carolina were to pay countless 
billions of dollars under this bill to take the area of its own 
coast out of a lease sale, would that eliminate the threat to 
North Carolina's beaches of offshore oil and gas leasing in the 
Atlantic?
    Mr. Cahoon. Absolutely not. I mean, North Carolina could be 
in the situation where it had chosen to pay to not have oil 
rigs off of its coast, but Virginia and South Carolina could, 
and a spill off either of those coasts, given their currents 
and the various conditions offshore, could easily bring the oil 
to our coast, and we would be in the situation where, hey, we 
have paid, and now we have a mess. And it would be outside of 
our control, and we would then suffer those economic 
consequences.
    Ms. Barragan. There is no doubt, there is certainly not a 
line that stops oil from seeping into different parts of the 
ocean, and we have seen what happens to tourism and industries 
when that occurs.
    We recently read about Secretary Zinke taking Florida off 
of this draft proposed plan.
    Do you think that North Carolina's coastline is equally as 
unique and as reliant on tourism as Florida's?
    Mr. Cahoon. I do. I think much of our coast is even more 
reliant on tourism. If you look at our coast, we have no 
fallback. We have no major cities, no large ports, no large-
scale development behind our beaches. If there is oil on the 
beach, we have no place to go. We give our houses to the banks 
and we leave.
    Ms. Barragan. Great. Thank you.
    I yield back.
    Mr. Gosar. I thank the gentlewoman.
    The gentleman from Georgia, Mr. Hice, is recognized for 5 
minutes.
    Dr. Hice. Thank you, Mr. Chairman.
    Mr. Ebell and Mr. Loris, let me address my questions to 
both of you.
    As this bill, the offshore title, currently is drafted, 
states that participate would receive 50 percent of the 
offshore development.
    Currently, just by comparison, the revenue from the Gulf 
states is shared at 37.5 percent. The rest of it goes to the 
Land and Water Conservation Fund.
    So, my question, to begin with, this 50 percent to the 
states, is that fair? Is that equitable? Is that a good thing 
in your estimation?
    Mr. Loris, I will begin with you.
    Mr. Loris. I do think so, and I think if they assume even 
more responsibility, then they should get an even greater share 
of the revenue.
    Mr. Ebell. Thank you, Representative Hice.
    I think it is a question for debate by the Committee. As I 
said, the Federal royalties for the Federal land states, those 
lands are in the state as an imposition. The Federal waters are 
federally-owned, they are not state-owned.
    So, I think the argument could be made that the royalties 
should be less, maybe 37.5 percent.
    On the other hand, the environmental risks and the 
balancing between different values might mean that the 
royalties should be higher than 50 percent.
    I think I would defer to the prudential judgments of the 
members of the Subcommittee on this and let you guys work it 
out.
    I think also the fees to be paid if you want a moratorium 
need to be worked out, and it is not clear to me where they 
should be set either, and I think you probably have a lot more 
interest in getting that right, and I will defer to you on that 
as well.
    Dr. Hice. OK. But overall, it may need to be tweaked one 
way or the other, but it doesn't appear to be unreasonable.
    Mr. Ebell. No. Not at all.
    Dr. Hice. Mr. Anderson, let me ask you this, it came up a 
while ago with the state of Utah. We have the Federal 
Government failing, frankly, to effectively manage the oil and 
gas permitting process. What kind of impact does that have on 
local communities and states?
    Mr. Anderson. It is huge. Like I said, there are some areas 
in our state that just cannot provide the recreational 
opportunities that other parts in our state can, like with Zion 
National Park. Not all public lands are the same, and as such, 
we have some areas that need oil and gas development (1) for 
the royalties that our state receives, and (2) almost more 
importantly, for the economic boon that it provides these 
communities. It is really the lifeblood of them, and they have 
to have it, and without it, we are leaving rural America 
behind. These communities don't have the opportunities that 
many other parts of our state do.
    Dr. Hice. And at best, that economic boon is delayed years 
and years and years, as we have backlogs in the permitting 
process that seem to never get resolved.
    Mr. Anderson. Absolutely. Yes, exactly.
    A great example of that, I was reading an article a few 
days ago that down in New Mexico, in the San Juan Basin, it was 
taking over 120 days to approve an oil permit, and that is a 
problem. When there is an oil boom, you need to make it happen 
quickly. You need to make sure it gets out there so these 
states and communities can get on it as soon as possible.
    Dr. Hice. OK. I want to come back, Mr. Loris and Mr. Ebell, 
to you as I wrap up here.
    I really like this idea. I like the direction this is 
moving here, but I do have a question regarding certain states 
that have a particular issue that may be involved.
    For example, offshore in Georgia, we have the breeding 
ground for the right whale. So, what happens in a case like 
that? Suppose there are resources that are discovered, this, 
that, and the other, what happens when there is a legitimate 
issue involved here? Would Georgia, in that case, for example, 
be responsible for the lost production fee?
    Mr. Ebell. Representative, I am not an expert in the 
permitting of offshore oil, but I do know that the 
environmental permitting process is very rigorous, and it is 
the decision of the land managers that we are not going to go 
ahead because the environmental permitting is----
    Dr. Hice. So, there would be a waiver?
    Mr. Ebell. We withdraw this track because we don't think we 
can satisfy the environmental----
    Dr. Hice. My time is running out.
    Mr. Loris.
    Mr. Loris. Yes, I would echo those concerns. If there is a 
waiver for something that is of a legitimate concern that is 
echoed by both the state environmental resources department and 
also by the Department of the Interior, you could have a 
process where those concerns have some sort of footing where 
the state isn't paying for a lost production fee.
    Dr. Hice. I think that would be important when there are 
legitimate issues, not to be penalized if you are not able to 
do the development.
    Thank you to each of you for being here.
    I yield back.
    Mr. Gosar. I thank the gentleman.
    The gentleman from Virginia, Mr. Beyer, is recognized for 5 
minutes.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    Mayor Cahoon, supporters of offshore oil drilling and 
exploration routinely use an old mischaracterized quote from 
Dr. Bill Brown of BOEM, in which he claims that seismic air gun 
blasting doesn't cause harm to populations of marine life, even 
sometimes leaving out the word ``populations'' to intentionally 
misrepresent the science. But it is clearly not true.
    Can you talk about some of the impacts that seismic air gun 
blasting would have on the marine life that North Carolina 
fishers are dependent on?
    Mr. Cahoon. Yes, sir. One of the issues that is of concern 
is our legislature is talking now about large-scale oyster 
production in the sounds of North Carolina, and we know that 
there are issues with air gun testing that affect even 
shellfish.
    But most specifically, I would refer to the offshore 
fishing, both commercial and sportfishing. Just as an example, 
we have a very significant industry of tourists who come, and 
one member of the group goes offshore fishing, they might go 
out to the Gulf Stream. The rest of the family goes shopping, 
and they spend money in our community, and they go out on boats 
that are built in our county, which our boat building is also a 
very large significant industry that generates a lot of 
economic activity.
    And a change that would move those tuna, bill fish, that 
would have any kind of impact on our captains' ability to go 
find those for those recreational fishermen, that is a 
significant negative impact.
    Mr. Beyer. Thank you very much.
    Mr., is it Ebell?
    Mr. Ebell. Yes. That is fine.
    Mr. Beyer. Just this week, the National Oceanic and 
Atmospheric Administration reported that May was the warmest 
May recorded in the continental United States ever, that it was 
the warmest 3-year period in recorded history, the warmest 4-
year period in recorded history, the warmest 5-year period in 
recorded history. There was an article in The New York Times 
yesterday that Antarctica is melting at three times the rate it 
was just 6 years ago in 2012.
    I know you have been a climate change denier/skeptic, et 
cetera, over the years. Has the abundant science changed your 
mind at all?
    Mr. Ebell. Representative Beyer, this is a very large 
issue. I think that the debate in climate is now between the 
modelers and the data. And if you look, the only reliable 
global temperature data is the satellite data and the weather 
balloon data. They do not show what you are saying that the 
surface temperature weather stations are showing.
    So, I think the modelers show a lot of warming. The 
historic data since the satellites went up in 1979 shows a rate 
of about 0.12 degrees per decade or 1.2 degrees per century. 
That means that the 2 to 3 goal has already been achieved, and 
you all can declare victory and say that catastrophe has been 
averted.
    Mr. Beyer. I don't want to debate the science with you, but 
it would be easy to get a number of climate scientists up here 
who would contradict almost everything that you just said, 
including that the only reliable data was from satellites.
    Let me ask you one other question. I know you have been on 
record for wanting to abolish the EPA. Do you still feel that 
way?
    Mr. Ebell. I think that, as I have said, very large parts 
of the EPA have already been transferred to the states for 
monitoring, compliance, enforcement, all these things. I think 
more can be done, and I think large parts of the EPA can be 
abolished, yes.
    Mr. Beyer. Thank you.
    Mayor Cahoon, the Eastern Shore of Virginia Chamber of 
Commerce sent a letter to Secretary Zinke opposing the 5-year 
plan, mostly because they heard from all of the restaurants, 
hotels, and all the tourist things.
    How would offshore drilling affect the tourism, hotel/
motel, or restaurant industry on the coast of North Carolina?
    Mr. Cahoon. To answer how that would affect, there would be 
some effect of oil rigs and that kind of activity offshore in 
terms of the fishing activity and, again, the tourism 
recreational fishing activity. But what we really worry about 
is the spill and what happens when there is a spill. If the 
rigs are offshore and the water is clean and the fishermen can 
fish, then yes, those industries can co-exist.
    But I go back to the sword of Damocles analogy, the 
likelihood of that string breaking may be very small, but when 
it does, Damocles is dead.
    And for us, that one spill could be enough to totally wipe 
out a season for us, and with the thin margins for us, for our 
hoteliers, our restaurant people, and all those in the tourism 
industry, that could wipe us out, and that is all it would 
take.
    Mr. Beyer. Thank you very much.
    Mr. Gosar. I thank the gentleman.
    We are going to do a quick 5 minutes on both sides for a 
second round. I am going to start with Mr. Lowenthal for his 5 
minutes.
    Mr. Lowenthal. Mr. Ebell, I want to ask you a few questions 
first, yes or no.
    You have a long and well-documented history of opposing 
renewable energy development in the United States.
    Is that true or not? And if not, explain.
    Mr. Ebell. No. I oppose mandates and subsidies.
    Mr. Lowenthal. So, then you support--because if I follow 
that statement, last year, you said, ``This large-scale effort 
to move the grid to solar and wind is a dead end. The wind and 
solar industries have peaked.'' Is that accurate?
    Mr. Ebell. Yes. It is certainly true.
    Mr. Lowenthal. You think they have peaked?
    Mr. Ebell. Yes.
    Mr. Lowenthal. Earlier this year, a study was published by 
the Environmental Defense Fund that found that wind and solar 
industries are creating jobs 12 times faster than the rest of 
the economy, and there are nearly 5 times more jobs in wind and 
solar than in coal.
    Offshore wind is a technology that is just beginning to get 
off the ground in this country as well.
    Given the continued job growth in renewable energy we have 
seen year after year, can you please explain what you mean that 
solar and wind industries have peaked?
    Mr. Ebell. Yes. These are very low-value jobs. Coal still 
provides more than 10 times as much electricity with many fewer 
people in the industry.
    You have to look at what is the value produced. Wind and 
solar still produce less than 3 percent of the electricity in 
this country, and it is not very valuable electricity because, 
as the Chairman has pointed out, it is intermittent and 
unreliable.
    Mr. Lowenthal. But the question is, has it peaked? And we 
are seeing now that they are producing jobs at a faster rate 
and that the amount of investment has gone up.
    Why do you say it has peaked?
    Mr. Ebell. Well, maybe I spoke a little too soon. The 
Federal subsidies for wind and solar have started to go down, 
so there is a rush to get projects ground broken so that 
project can qualify for the full subsidy.
    Mr. Lowenthal. So, you agree that there are more projects 
and that----
    Mr. Ebell. For the next couple of years, but we are going 
to see a very sharp decline as soon as the subsidies go down.
    Mr. Lowenthal. That is your speculation, that there is 
going to be a sharp decline.
    As far as the data is concerned, it has not peaked. Is that 
true?
    Mr. Ebell. Yes.
    Mr. Lowenthal. Thank you.
    I wonder if we could put something on the screen? Are we 
able to do that?
    OK, then before I yield back, I will just enter into the 
record the data that indicates from the Department of the 
Interior that Federal onshore oil production has gone from 99 
million barrels of oil in onshore in 2008 to 175 million 
barrels in 2015, which is a 77 percent increase.
    And also the slide that is from the Department of Energy, 
as reported by Bloomberg, maybe this is also Department of the 
Interior, that New Mexico's oil on Federal lands, which started 
as equal in 2006, was slightly above in 2007, and by the time 
we got to 2015, the percentage change on Federal land was 
almost 250 percent and state land was statewide, private and 
state, 150 percent, to indicate that oil production had 
increased that much on Federal versus state, and I enter this 
into the record.
    Mr. Gosar. Without objection.
    Mr. Lowenthal. I yield back.
    The Chairman. The gentleman yields.
    The gentleman from Utah is recognized.
    Mr. Bishop. Let me share my time with Mr. Graves. Just 5 
minutes between us? Let's start with Mr. Graves.
    Mr. Graves. I am going to be very quick.
    Do you mind putting my graphic up?
    I hate to say I told you so. OK. I don't, but if you look 
at this, this shows very clearly what we have all been talking 
about. You can see the yellow and orange lines on the bottom 
are relatively stagnant, I believe, Mr. Loris, was the term, 
whereas you see the non-Federal production, which means on 
private lands, has spiked. This is Congressional Research 
Service data. I think everybody agrees it is used from the 
Department of Energy as well. It just makes the point that the 
production in private lands has gone up significantly compared 
to those on public lands and managed under the Obama 
administration.
    Very quickly, Mr. Mayor, there were at least six sites that 
provided ocean access, beach access, from Land and Water 
Conservation Fund funds on Nags Head, and there were at least 
two improvement projects. In fact, the state of North Carolina 
has received millions and millions of dollars from offshore 
energy revenues produced off the coast of Louisiana that have 
been invested in Nags Head specifically and other sites in 
North Carolina.
    In your testimony, you make some mention to a scheme to 
divert money from states to the Federal Government. I am just 
wondering if we could have our money back in Louisiana.
    I yield back.
    Mr. Bishop. Let me ask Mr. Anderson just a couple 
questions.
    Let's play the federalism game here because that has been 
brought up several times.
    Does federalism, as we understand it, allow a state to 
dictate what will happen on Federal waters off their coast?
    Mr. Anderson. No.
    Mr. Bishop. Does it allow states that are onshore to 
dictate what happens on Federal land within our states?
    Mr. Anderson. No.
    Mr. Bishop. If we were to open up this process so that 
those who have offshore would have greater say in how those 
offshore waters are developed at the same time you allow states 
that are onshore to have greater say on how public lands, 
Federal lands, are managed within our state, would that 
increase or decrease the concept of federalism and the ability 
of people to control their lives?
    Mr. Anderson. It would increase if we had it on our land, 
but, yes, absolutely, it would increase it.
    Mr. Bishop. So, that is what this bill is actually trying 
to do.
    Mr. Anderson. Absolutely.
    Mr. Bishop. Allow states to have a say in an area right now 
where they do not have a say.
    Mr. Anderson. Yes.
    Mr. Bishop. Now, since my friends have left us already, 
which of these two letters fits? This is the one that says the 
states want to have a say on offshore water that is Federal, 
and this is the one from Utah that says we want to have a say 
on Federal lands within our state. Which of the two is the 
better letter? Or are they equal?
    Mr. Anderson. Equal.
    Mr. Bishop. Then give us a break. In this bill, it is one 
of the things they want to do.
    Isn't it somewhat frustrating to think that people who want 
to drive their cars to work, want to air condition their homes, 
want to air condition the tourist hotels that are attracting 
people don't really care about where that energy to air 
condition and drive their cars comes from?
    Mr. Anderson. Yes. They don't think about it very often.
    Mr. Bishop. Let's try another one. Mayor Cahoon wants the 
ability of controlling and negating development on Federal 
lands off the coast of North Carolina in his area.
    Did the mayors of Blanding and Monticello have a concern 
about the designation of Bears Ears National Monument in Utah?
    Mr. Anderson. Incredibly concerned about it.
    Mr. Bishop. Did they have a say in anything?
    Mr. Anderson. No.
    Mr. Bishop. If this bill was passed, would each of those 
have a better say in those types of situations?
    Mr. Anderson. Without a doubt.
    Mr. Bishop. And this is a plus forward going in some kind 
of direction.
    This is what we are talking about. There is a great deal of 
hypocrisy going on here. People want to have a say in their 
area but will not allow somebody else to have that say, and 
that has to change. And that is what this bill is talking 
about, giving greater ability of people to having some kind of 
input, which does not happen under the status quo right now. 
Plus, there is an idea that, at some point, you have to provide 
the energy that is necessary to drive tourism and everything 
else. And you can't have it both ways. You have to work 
together in some particular way.
    I think Louisiana has shown, and Texas, Alabama, and 
Mississippi have shown how they are dedicated to making that 
work. And it can work.
    Some of the other states that are drawing lines in the 
proverbial sand are just doing that: drawing lines in the 
proverbial sand.
    I appreciate the witnesses for being here. I would like to 
tell Mr. Hice I think he should get 50 percent. I don't care 
about the rest of you. And I am glad you brought up LWCF 
because that is stuff that people talk about that is good 
offshore development. There has to be some kind of level 
playing field so that we are talking about the same thing all 
over the place.
    Mr. Gosar. The gentleman from California is recognized.
    Mr. Lowenthal. Mr. Chairman, I would like to submit for the 
record letters in opposition to this discussion draft from six 
governors of coastal states and multiple environmental 
organizations.
    Mr. Gosar. Without objection, so ordered.
    The one comment that I am going to make, and I will keep it 
very brief--Mayor, in regards to your teachers, how do you pay 
your teachers, in what quartile do you pay your teachers, 
public schools?
    Seems like an odd question. And the reason being is because 
a lot of these revenues go to paying our teachers back home, 
and so this is one of those revenue sources where a vested, 
multi-discipline, multi-factorial type process actually 
benefits that, but can you tell me what quartile you--or can 
you get back to me in regards to the quartile of which you pay 
your teachers?
    Mr. Cahoon. I can certainly get back to you on what we pay 
teachers and where we rank among the states. Of course, the 
vast majority of that money that goes to teachers is at state 
level, and they struggle to balance that.
    Mr. Gosar. That is why I brought it up, because the next 
person I want to talk to is Mr. Anderson.
    Can you quickly give me a 1-minute synopsis of SITLA?
    Mr. Anderson. Yes. State trust lands are entirely to make 
money for our education system, as well as a few other public 
institutions like hospitals, but the bulk of that goes--but I 
think it is so fascinating that, even though they are there to 
make money, they are not just drilling and logging.
    Like I mentioned in my presentation, they found innovative 
ways to promote recreational opportunities. In fact, it is 
becoming so popular that Idaho, because of the money that they 
are receiving from recreation, more than 70 percent of the 
state trust lands in Idaho are open to recreation. The other 30 
percent aren't largely open because they are isolated. They are 
landlocked by private land.
    So, we are seeing that, in fact, recreation is a great 
driver in making a lot of money for schools on those state 
trust lands.
    Mr. Gosar. Where I am getting to is diversified portfolios. 
They all perform very, very well.
    I want to thank the witnesses for their valuable testimony 
and the Members for their questions.
    Members of the Committee may have additional questions for 
the witnesses, and we ask you to respond to those in writing.
    Under Committee Rule 3(o), members of the Committee must 
submit witness questions within 3 business days following the 
hearing by 5 p.m., and the hearing record will be held open for 
10 business days for those responses.

    If there is no further business, without objection, the 
Subcommittee stands adjourned.

    [Whereupon, at 12:00 p.m., the Subcommittee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Lowenthal Submissions

    --  Letter addressed to Chairman Gosar and Ranking Member 
            Lowenthal from the Outdoor Alliance Association 
            dated June 14, 2018, to express opposition to the 
            ``State Management of Federal Lands and Waters 
            Act.''

    --  Letter addressed to Chairman Bishop, Ranking Member 
            Grijalva, Speaker Ryan, and Democratic Leader 
            Pelosi from Governor Murphy of New Jersey, Governor 
            Malloy of Connecticut, Governor Northam of 
            Virginia, Governor Cooper of North Carolina, and 
            Governor Raimondo of Rhode Island dated June 13, 
            2018, regarding opposition on the Enhancing State 
            Management of Federal Lands and Waters Act.

    --  Article dated June 19, 2018, ``Applied conservation 
            science,'' on New Zealand blue whales, Geospatial 
            Ecology of Marine Megafauna Laboratory, by Dawn 
            Barlow, student at Oregon State University.

    --  Article dated August 1, 2017, ``The impact of seismic 
            air gun exposure on the haemolymph physiology and 
            nutritional condition of spiny lobster, Jasus 
            edwardsii.'' Marine Pollution Bulletin (2017), 
            Fitzgibbon, Q.P. et al.

    --  Article dated October 25, 2017, ``The sense of hearing 
            in the Pacific oyster, Magallana gigas.'' PLoS ONE, 
            Charifi, M., et al.

    --  Article dated August 3, 2017, ``Exposure to seismic air 
            gun signals causes physiological harm and alters 
            behavior in the scallop Pecten fumatus.'' PNAS, 
            Day, R.D., et al.

    --  Article dated June 22, 2017, ``Widely used marine 
            seismic survey air gun operations negatively impact 
            zooplankton.'' Nature Ecology & Evolution, 
            McCauley, R.D., et al.

    --  Article dated December 22, 2016, ``Seismic survey noise 
            disrupted fish use of a temperate reef.'' Marine 
            Policy, Paxton, A.B., et al.

    --  Department of the Interior, Chart on Federal Onshore 
            Oil Production from 2008-2016.

Rep. Velazquez Submission

    --  Letter addressed to Chairman Gosar from the State of 
            New York Executive Chamber, Andrew M. Cuomo, 
            Governor, dated June 13, 2018, regarding opposition 
            on the Enhancing State Management of Federal Lands 
            and Waters Act.

                                 <all>
</pre></body></html>
